          	


	
		

					
	
			
				
						
			


				

	
                                                                 Semiannual Report to the Congress




CHAPTER ONE - REDUCE HIGH RISK VULNERABILITIES

INTRODUCTION              The Department of Defense (DoD) audit, inspection and investigative
                          community acts as an agent of positive change in identifying better ways
                          to accomplish the DoD mission by controlling risk, fighting fraud and
                          reducing costs. By closely linking our oversight activities with the
                          Department’s strategic goals and management improvement plans, as
                          well as extensively participating in DoD team problem solving efforts,
                          we try to provide objective, relevant, practical and timely advice to
                          policy makers, managers and commanders.

HIGH RISK AND             In the two previous semiannual reports, we discussed the principal high
SPECIAL EMPHASIS          risk areas in the Department--Acquisition, Financial Management,
AREAS                     Infrastructure and Information Technology Management. In addition, we
                          addressed certain focus areas where there continuously are numerous
                          significant audits and investigations--Acquisition Reform, Health Care
                          Fraud, Readiness, Property Disposal and Official Misconduct. In this
                          report, we provide updates on the main high risk areas, with additional
                          detail on Information Technology Management. We also discuss another
                          focus area--Environment.

ACQUISITION               The DoD continues to put a very high priority on acquisition reform to
                          reduce per unit cost of equipment, time needed to develop new weapon
                          systems, acquisition overhead expenses and reliance on other than
                          commercial business practices. A paramount goal is to attain a $60
                          billion annual investment level for weapon systems modernization
                          without requiring an increase in overall DoD budget authority.
                          Achieving this goal depends on successfully implementing drastic
                          reforms in all DoD support functions, especially logistics. Costs can be
                                      cut significantly only if weapon systems are chosen and
 “Changing decades old                designed with more emphasis on reducing life cycle support
 mindsets is difficult... much        costs than has been evident in the past. Because the
 remains to be done.”                 Department’s principal management problems cut across
                                      functional areas and are interlinked, the traditional DoD
                          “stovepipe” management approach is being replaced by more integrated
                          efforts. Changing decades old mindsets and habits is difficult, however,
                          and much still remains to be done.

                          From an oversight standpoint, the challenge is to ensure that the DoD
                          maintains reform momentum without inadvertently weakening important
                          management controls during a period of increased risk. The risk of fraud
                          and mismanagement is considerably increased during periods of

                                               2
Semiannual Report to the Congress




                            downsizing, restructuring and introducing completely new processes and
                            systems, even when those measures are intended to result ultimately in
                            more effective and efficient operations. Although much of the risk may
                            be unavoidable, it is important that managers know what the risk factors
                            are and have effective controls in place to deal with them. For further
                            discussion on this point, see the summary of the recent Inspector General,
                            DoD, testimony to Congress in Chapter 2.

                            During the reporting period, we issued 42 audit reports on acquisition
                            matters. Our findings indicated that the initial procurement approaches
                            used to buy aircraft spare parts using commercial practices were
                            disjointed and inefficient, resulting in excessive prices paid to two
                            contractors. Most of the parts were unnecessarily procured on a sole-
                            source basis. Our audits also indicated continued problems in models
                            used for determining weapon system requirements, the need for further
                            improvement in product quality deficiency reporting and research,
                            opportunities for reducing security costs and inadequate planning for
                            various types of aircraft onboard systems and simulators.

FINANCIAL               The Department remains unable to comply with the requirements of the
MANAGEMENT              Chief Financial Officers Act of 1990 and the Federal Financial
                        Management Reform Act of 1994 regarding auditable annual financial
                        statements. During the reporting period, we issued disclaimers of opinion
                        on all but one of the major DoD reporting entities and on the DoD-wide
                        consolidated financial statements. The causes for this lack of compliance
                        remain the lack of accounting systems with integrated, double-entry,
                                              transaction-driven general ledgers and a wide
 “The Department remains unable to            variety of internal control problems. The DoD has
 comply with...the Chief Financial            candidly acknowledged these deficiencies and is
 Officers Act...and the Federal Financial working to overcome them; however, new systems
 Management Reform Act.”                      will not be fully in place until 2003. In the
                                              meantime, we are working with the Department
                        and the General Accounting Office (GAO) to attempt to mitigate, to the
                        extent possible, the impact of DoD financial reporting problems on the
                        GAO ability to opine on the future of Government-wide financial
                        statements.

                            During the reporting period, 82 audit reports were issued in this area. All
                            but a few pertained to the mandatory financial statement audits. The
                            combination of the downsizing of the audit community, the increased
                            number of statements and reporting entities requiring audit, the labor-
                            intensive nature of those audits and other factors makes it impossible to
                            carry out a sufficiently robust program of operations audits to

                                                  3
                                                         Semiannual Report to the Congress




                 compliment the financial statement audits in both the finance and non-
                 finance areas of the DoD. Nevertheless, audit reports did address other
                 finance issues, such as the contract fund reconciliation process, cash
                 management in working capital funds, debt collection and employee
                 injury compensation. We continued monitoring DoD efforts to reduce the
                 number of disbursements that cannot be matched to original obligations
                 and will report on that matter later this year.

                 On another longstanding issue, we apprised the Congress in February
                 1998 that we were unable to provide a planned report on a new DoD
                 procedure for making contractor progress payments because the
                 Department was still considering how to address the problem and had
                 deferred a decision to at least May 1998.

INFRASTRUCTURE   Reducing support costs, while not degrading force readiness or quality of
                 life for military personnel, is a prime focus of DoD managers. During this
                 reporting period, we issued 75 audit and evaluation reports covering
                 logistics, health care management, environment, facility construction and
                 other support areas. Virtually all of those reports can be linked to
                 strategic reform goals, which in turn are primarily related to adopting
                 commercial business practices, such as just-in-time delivery of supplies
                 and managed health care, outsourcing and eliminating excess capacity
                 and inventory. Findings addressed matters such as housing requirements,
                 base utility privatization, personnel requirements, dual management of
                 commercially available items by DoD and other Government agencies,
                 joint contracting for depot maintenance of equipment, logistics
                 agreements with allies, spare parts requirements and transport vehicle
                 management.




                                       4
Semiannual Report to the Congress




                                    This page left blank intentionally




                                                  5
Special Emphasis Area--Information Technology Management           Semiannual Report to the Congress




INFORMATION TECHNOLOGY MANAGEMENT

                     Rapidly advancing computing and communications technology continues
                     to enhance U.S. military capabilities. Information technology is a major
                     component of most weapon systems and the capabilities of command,
                     control, communication and intelligence systems are a crucial factor in
                     battlefield success or failure. Likewise, all DoD business functions--
                     logistics, procurement, personnel management and others--depend
                     heavily on information networks. The evolving global information
                     environment is introducing paperless transactions, universal access to
                     information, further miniaturization and other capabilities that enable
                                    radical changes in system designs and processes. The
 “The challenges posed by the       ongoing revolutions in both military concepts and business
 “Y2K” problem are enormous...” practices will be successful only if the DoD overcomes a
                                    number of formidable challenges. To help assess how well
                     those challenges are being addressed, we issued 31 inspection and audit
                     reports during the period. Also, the audit and investigative communities
                     are taking proactive measures to keep pace with the problems and
                     opportunities in this area.

YEAR 2000                  By the end of the reporting period, about 150 DoD internal auditors were
COMPUTING                  conducting over 2 dozen reviews of DoD efforts to deal with the Year
                           2000 computing problem. The challenges posed by the “Y2K” problem
                           are enormous; in February 1998, the DoD estimated that it had 2,915
                           mission-critical systems and about 25,000 others. The interfaces between
                           these systems and with non-DoD systems owned by other Federal
                           agencies, state and local governments, contractors and other countries are
                           huge in number and understood only in part. Identified problems include:

                                 •   The dispersed ownership of the DoD systems themselves.

                                 •   Difficulty in compiling roadmaps of system interfaces and
                                     summaries of test results for easy access on an unclassified
                                     basis.

                                 •   Competition for resources.

                                 •   Conflicting priorities.

                                 •   Resistance to recognizing the Y2K problem as a serious threat
                                     to continuity of military operations.


                                                  6
Semiannual Report to the Congress             Special Emphasis Area - Information Technology Management




                                    •   Necessarily very complicated testing scenarios that will be hard
                                        to stage realistically.

                                    •   The lack of adequate staffing in the Office of the Secretary of
                                        Defense to address the problem.

                                    •   Overly optimistic progress reports from throughout the
                                        Department.

                                    •   Widespread lack of viable contingency plans.

                                    •   Lack of assurance that non-DoD system failures will not impact
                                        DoD systems directly or cause indirect problems in areas like
                                        the U.S. industrial base or utility infrastructure.

                                    •   Limited confidence that the $1.9 billion DoD cost estimate for
                                        Y2K problem remediation is accurate.

                       During the reporting period, positive momentum to deal with the
                       problem has become more apparent. The appointment of a Y2K
                       conversion official with a full-time staff was an overdue and important
                       step. The Department reacted responsively to our audit finding that
                       procurement rules against the purchase of “Y2K compliant” information
                       technology products were not properly implemented. Likewise,
                                     managers have been highly receptive to audit advice on
 “...positive momentum to deal       matters including programs that were missed during the
 with the [Y2K] problem has          problem assessment phase; inaccurate reporting; the
 become more apparent.”              inadequacy of the initial DoD-self certification approach;
                                     the need to test Y2K scenarios in actual joint exercises;
                       problems in efficiently compiling and accessing test information; and the
                       need for outreach initiatives, especially to critical small business
                       suppliers.

                            Th e Do D pl ans to have al l m issi on-cri tical system s fixed by
                            December 31, 1998. Given the status of the current effort, it is likely that
                            many systems will miss that date. We foresee that audit efforts during the
                            remainder of fiscal year 1998 will concentrate on identifying any
                            remaining gaps in the assessment process, helping to rebaseline the status
                            reporting and reviewing the realism of test plans. During fiscal year
                            1999, the primary audit focus likely will be on monitoring the controls
                            over testing and ensuring that viable contingency plans are in place
                            wherever necessary. Those plans are flexible and the audit community
                            will adjust its coverage to meet management’s needs, in accordance with

                                                    7
Special Emphasis Area--Information Technology Management            Semiannual Report to the Congress




                           our partnership with the Chief Information Officers in this area. We will
                           also encourage the Military Service Inspectors General to provide addi-
                           tional coverage, especially in the field units, along the lines of Army IG
                           work at the installation level.

OVERSIGHT OF               The principal goals of the Clinger/Cohen Act were to ensure that Federal
INFORMATION                agencies improved their processes for determining information tech-
TECHNOLOGY                 nology requirements, maximized use of commercially available products
INVESTMENTS                and implemented more effective management decision making and over-
                           sight for investment projects. The DoD is attempting to streamline and
                           modernize computing support in all business areas at once. An effort of
                           this magnitude would stress even a well-established and well-resourced
                           management control structure. In an era of overall downsizing and
                           against a backdrop of decades of disjointed, overly decentralized systems
                           management and repeated failures to standardize data or systems,
                           complying with the Act’s precepts will be extremely difficult for the
                           Department.

                           The DoD has announced the merger of the management oversight
                           process used for major weapon systems and information systems and is
                           eliminating the Major Automated Information Systems Review Council.
                           Much emphasis is being placed on resolving system development issues
                           in integrated product teams, necessitating few formal reviews by senior
                           managers. We endorse the team problem solving approach; however, we
                           have concerns about critical system programs for which very limited
                           oversight exists. We believe that closer Office of the Secretary of
                           Defense involvement is needed, regardless of what mechanism is used
                           for such oversight. In addition, it is imperative that all important system
                           development efforts be comprehensively audited at least once during
                           development and again during procurement and fielding.

   “...resource constraints...      Unfortunately, resource constraints and the emergence of other
   preclude adequate audit          audit requirements, including the Y2K problem, currently pre-
   coverage.”                       clude adequate audit coverage. This is of particular concern now
                                    because fiscal years 1998 through 2001 are probably the most
                           crucial years in terms of whether the next generation of DoD automated
                           systems will fulfill the high expectation for them.

                           Auditors recently identified problems in the Reserve Components Auto-
                           mated System, DoD accounting system migration strategies, Defense
                           Property Accountability System, Defense Civilian Personnel System,
                           Defense Security Assistance Management System, DoD Joint Technical
                           Architecture and the Permanent Change of Station Management

                                                 8
Semiannual Report to the Congress          Special Emphasis Area - Information Technology Management




                            Information System, among others. Many other system acquisition
                            efforts remain unaudited.

INFORMATION                 The DoD estimates that there are at least 250,000 attempts a year to gain
ASSURANCE                   unauthorized access to DoD computer systems. In most cases, the
AUDITS                      motives appear to be thrill seeking or curiosity, and no damage is done.
                            However, vulnerability to fraud, vandalism, invasion of privacy and
                            sabotage is a growing national concern.

                            Internal DoD auditors were among the first to identify the growing nature
                            of the problem four years ago and have remained engaged in its control.
                            Both financial audits and automated system program audits routinely
                            include reviews of security, especially general and application system
                            controls. In addition, the Army Audit Agency agreed with the Army
                            Chief Information Officer to evaluate network and system security
                            continuously and to assess recent improvements to the Army Information
                            Systems Security Program. Air Force auditors are verifying whether
                            vulnerabilities identified by the Air Force Information Warfare Center
                            have been reduced. Office of the Inspector General (OIG), DoD auditors
                            recommended improvements in DoD multi-level security plans and in
                            controls for sensitive databases such as the Mechanization of Contract
                            Administration Services System and the Defense Civilian Personnel Data
                            System. Audit findings include continued unacceptably high numbers of
                            unauthorized accesses; inherent security flaws in internet-based net-
                            works; lack of separation of duties; and inadequate security procedures,
                            training and awareness.

COMPUTER CRIME        Crimes involving computers are becoming more prevalent. From
INVESTIGATIONS        pornography and concealing evidence of a crime to intrusions into
                      computer networks, the criminal use of computers has had a growing
                      impact on the DoD law enforcement community. Investigating these
                      crimes frequently requires the seizure of multiple computers, review of
                      large amounts of data, analysis of sophisticated hardware and technical
                      interviews of system managers and owners. Increasingly, successful
                                     investigation will demand agent specialization. Given
 “...resources to combat [crimes of the growing enormity of the threat to Department-wide
 computer intrusion and fraud] are systems, resources to combat the problem are simply
 simply inadequate.”                 inadequate.

                            Because the challenges in this area are so similar for both the counter-
                            intelligence and investigative communities, the DoD plans a joint effort,
                            the DoD Computer Forensics Laboratory and the DoD Computer Investi-
                            gations Training Program (DCITP). With the Air Force Office of Special

                                                 9
Special Emphasis Area--Information Technology Management            Semiannual Report to the Congress




                           Investigations (AFOSI) as Executive Agent, this effort is underway, with
                           25 staff in training for certification as forensic computer examiners. Once
                           in a permanent facility, the laboratory will expand to 40 Army, Navy, Air
                           Force and Defense Criminal Investigative Service (DCIS) personnel
                           responsible for the processing and analysis of counterintelligence, fraud
                           and other criminal computer evidence. Training in computer crime
                           investigations will be provided jointly for counterintelligence and
                           information assurance specialists and investigators. The Naval Criminal
                           Investigative Service (NCIS) has been tasked by the AFOSI as the
                           agency responsible for the DCITP.

                           The AFOSI has also been a forerunner in using electronic technology to
                           assist in reviewing investigative documents through the use of its Data
                           Imaging System (DIS). The DIS can quickly review large volumes of
                           investigative documents. The AFOSI made the DIS available for use by
                           any Defense Criminal Investigative Organization (DCIO), and it is esti-
                           mated that use of the DIS has saved significant workyear resources.

                           In 1994, the NCIS developed an agency-wide capability to respond to
                           “computer crime” within the Navy and later established a Computer
                           Crime Investigations Group. The NCIS also established an Intrusion
                           Response Group at the Fleet Information Warfare Center. In October
                           1997 the Computer Investigations and Operations Department (CIO) was
                           created. The CIO investigates attacks on the Naval information infra-
                           structure and anticipates the nature of future attacks.

                           The DCIS established a computer fraud program in 1990. The program
                           evolved into the current cadre of Seized Computer Evidence Recovery
                           Specialists (SCERS). The SCERS agents are assigned to DCIS field
                           offices and assist in the seizure and analysis of evidence. Recently, the
                           DCIS created a Computer Intrusions Investigation Team (CIIT) in
                           cooperation with the Defense Information Systems Agency (DISA). The
                           CIIT investigates criminal intrusions into the DoD information
                           infrastructure.

                           The Army Criminal Investigation Command (CIDC) has computer
                           forensics capability at the CIDC Criminal Investigative Laboratory.
                           Additionally, the Army created a Computer Crimes Investigation Team
                           (CCIT) to expand its current investigative capability. The CCIT is a
                           mobile team that can assist field investigations involving computer
                           crimes. The CCIT enhances existing CIDC field activities.



                                                 10
Semiannual Report to the Congress          Special Emphasis Area - Information Technology Management




                                    This page left blank intentionally




                                                  11
Special Emphasis Area--Environment                                  Semiannual Report to the Congress




ENVIRONMENT

                        With more than 400 major military installations and over 25 million acres
                        of land, the DoD faces major environmental management challenges.
                        Currently, the Department devotes approximately $5 billion annually to
                        environmental programs. To date, the DoD has spent about $15 billion to
                        clean up existing hazardous waste sites and expects to spend an
                        additional $25 billion to complete these projects. The Department must
                        protect its people and the resources over which it has stewardship;
                                    comply with environmental laws, regulations, treaties and
 “...the DoD has spent about        agreements; and be a good neighbor. Failure to carry out these
 $15 billion...and expects to       responsibilities and to stress proactive action in this area could
 spend an additional $25            result in health hazards, impediments to operational readiness,
 billion...”                        deterioration of community relations, law suits, fines and
                                    unaffordable growth in cleanup costs. Since 1995, the DoD
                        audit and inspection community has issued over 30 reports addressing
                        environmental management issues. In addition, investigative coverage is
                        given a high priority in this area because the significant threat of criminal
                        activity is a continuing concern. Related criminal investigations by the
                        DCIS during this period resulted in 46 convictions and fines totaling $9.9
                        million. The following paragraphs summarize the primary environmental
                        challenges faced by the Department and the assistance we are providing
                        to help address them.

COST EFFECTIVE             The primary challenges facing DoD in the remediation of hazardous
CLEANUP                    waste sites are: identifying and prioritizing cleanup requirements;
                           developing realistic cost estimates; dealing with complex regulatory
                           processes; keeping costs under control; expeditiously identifying and
                           implementing emerging cleanup technologies; and removing expended
                           ordnance from military property, especially from base closure sites.
                           Recent audits and evaluations indicate that environmental cleanup and
                           laboratory test contracts need to be more effectively managed; budget
                           submissions need greater support; program management and oversight
                           could be improved; and some sites may not be using the most effective,
                           efficient cleanup technologies. For example, an evaluation of DoD
                           pump-and-treat remediation systems showed that they cost $40 million
                           annually to operate and maintain, but will not meet cleanup goals at
                           many sites in a timely manner. The Department is presently exploring
                           alternative treatment technologies. A review of environmental research,
                           development, test and evaluation projects showed a lack of management
                           controls for documenting and quantifying the transfer of more cost-
                           effective emerging technologies to the user community. Ongoing

                                                 12
Semiannual Report to the Congress                                   Special Emphasis Area--Environment




                            oversight efforts include evaluations of the effectiveness of cleanup
                            activities at controversial sites in Alaska and Massachusetts and reviews
                            of environmental technology transfers. Future audits will focus on clean-
                            up requirements and closing or realigning installations and the use of
                            innovative technologies to expedite remediation and reduce expenses.

REPORTING                   Audits of DoD financial statements indicated that the reporting of esti-
ENVIRONMENTAL               mated environmental cleanup liabilities is becoming more accurate,
LIABILITIES                 increasing from $17.9 billion in fiscal year 1996 to $38.3 billion in fiscal
                            year 1997. However, liabilities for disposal of hazardous waste and
                            remediation of environmental contamination remain understated, pri-
                            marily because estimates are lacking for major weapon systems and
                            ammunition. The DoD is attempting to implement accounting standards
                            that require comprehensive reporting in the financial statements for fiscal
                            year 1998.

COMPLIANCE                  Recent reviews of DoD compliance with statutory and regulatory
ISSUES                      guidance resulted in recommendations to improve management of under-
                            ground storage tanks. Such tanks must be brought into compliance with
                            the Resource Conservation and Recovery Act’s (RCRA) upgrading
                            requirements for tank spillage, overfill and corrosion protection by
                            December 22, 1998. As indicated by several audits, numerous problems
                            are encountered by the Department in developing an accurate inventory
                            of underground storage tanks, putting systematic remediation or replace-
                            ment projects into place and reporting progress to senior managers.
                            Despite Departmental remedial efforts, we have concluded that at least
                            24 percent of the DoD RCRA regulated underground storage tanks may
                            not be compliant by the statutory deadline of December 1998. This could
                            lead to fines by the Environmental Protection Agency (EPA) and friction
                            with some communities. The DoD has been responsive to the audit
                            recommendations and is accelerating its corrective actions.

ENERGY                      To comply with energy conservation goals mandated by the Energy
CONSERVATION                Policy Act of 1992 and Executive Order 12902, the DoD has a long-term
                            effort under way to reduce installation energy use by 30 percent between
                            1985 and 2005. According to the DoD, reductions to date have reached
                            15.5 percent of the energy use goals and $500 million off annual utility
                            costs. These conservation efforts are important for various national
                            security and environmental protection reasons, including cutting DoD
                            facility operating costs and reducing greenhouse gas emissions. Overall
                            DoD energy use will continue to decline as base infrastructure is down-
                            sized. The ongoing privatization of most utility systems on military
                            installations is intended to accelerate their upgrading and the introduction

                                                  13
Special Emphasis Area--Environment                                  Semiannual Report to the Congress




                           of more energy efficient features. In addition, audits have indicated there
                           are opportunities for further savings through more emphasis on energy
                           conservation during the design of new facilities. Management agreed and
                           is drafting more aggressive facility energy use reduction targets for new
                           buildings.

NATURAL                    The DoD challenge is to balance the need to protect and conserve the air,
RESOURCE                   land and water resources under its stewardship with military mission
CONSERVATION               requirements, including training, testing, manufacturing, maintenance
                           and stockpiling. A review of the Legacy Resource Management Program
                           showed the need to complete an inventory of natural and cultural
                           resources on DoD lands and to develop a prioritized list of conservation
                           projects. If audit priorities permit, we plan to evaluate DoD natural
                           resources management to ensure that DoD can sustain future needs and to
                           identify significant obstacles to training and testing missions.

POLLUTION                  For fiscal year 1994, the DoD reported releasing or transferring off-site
PREVENTION                 about 10.6 million pounds of toxic chemicals. In 1995, there was a
                           reported reduction of 36 percent to 6.7 million pounds. The DoD
                           Acquisition Year 2000 Goal 8 specifies a further 20 percent reduction.
                           Upfront measures to reduce the need for hazardous substances to be used
                           or generated during the manufacture, maintenance, operation and
                           disposal of weapon systems and other equipment are vastly more cost
                           effective than subsequent retrofits, modifications and cleanup. The DoD
                           acquisition procedures have been modified. The changes are partially in
                           reaction to audit findings that management emphasis was lacking and to
                           stress the need for system life cycle costs, including environmental costs,
                           during system design. Starting in fiscal year 1998, most acquisition
                           system audits will include coverage of the extent to which applicable
                           environmental issues are being addressed by program managers.
                           Auditors have also questioned the need for constructing new paint
                           removal facilities, which would have expanded the number of hazardous
                           waste generation sites and added to overall excess repair capacity. The
                           projects were canceled. We also support the DoD initiative to make
                           hazardous waste minimization a focus topic for the Single Process
                           Initiative (SPI). Led by the Defense Logistics Agency, the SPI is a joint
                           DoD/industry effort to adopt commercial best practices and standardized
                           processes instead of multiple contract-unique or DoD component-unique
                           processes at each contractor facility.

ENVIRONMENTAL              Some environmental laws impose a “cradle to grave” responsibility on
CRIME THREATS              the generators of hazardous waste. When the DoD is the generator of that
                           hazardous waste and environmental laws are violated, the DoD is placed

                                                 14
Semiannual Report to the Congress                                 Special Emphasis Area--Environment




                            in a compromising position and may be held accountable for the
                            improper or illegal disposition of such waste. The DCIOs recognize that
                            violations of the Federal environmental laws involving DoD-generated
                            hazardous waste are serious crimes that not only have an impact on the
                            environment, but are major impediments to the proper management of
                            the DoD contracting process.




                                                Improper disposal of drums of oil.




INVESTIGATIVE               The DCIOs are responsible for investigating alleged fraud and abuse with
EFFORTS                     regard to the removal, transport and disposal of hazardous material from
                            DoD installations, as well as investigating all allegations of fraud
                            involving the Defense Reutilization and Marketing Service (DRMS) and
                            its activities. The DRMS manages the disposal of hazardous property,
                            including hazardous material and hazardous waste, for DoD activities
                            and provides contracting services to DoD activities to dispose of hazard-
                            ous waste safely and in accordance with all applicable laws. The U.S.
                            Army Corps of Engineers (USACE) administers billions of dollars worth
                            of civil works projects annually, including projects involving cleanup
                            operations. The DCIOs are committed to ensuring that DoD contractors
                            comply with the environmental laws when performing under DoD con-
                            tracts to guarantee minimum damage to, and/or full restoration of, the
                            environment. DoD contractors who engage in environmental crimes,
                            such as providing fictitious laboratory test results, polluting waterways
                            and improperly disposing of hazardous waste while performing under
                            DoD contracts, have been and will continue to be primary targets for
                            investigation.


                                                 15
Special Emphasis Area--Environment                                  Semiannual Report to the Congress




                                                       Illegal trash transfer station.



CASE EXAMPLES              The following are examples of recent criminal and civil prosecutions
                           relative to DoD contractors.

                           Investigation disclosed that Tank Systems, Incorporated (TSI), Austin,
                           Texas, and several individuals submitted falsified test reports concerning
                           leaking tanks, which claimed the soil surrounding a leaking tank was
                           properly removed and disposed of when it was not. Further, claims were
                           submitted falsely certifying that work was performed in compliance with
                           contract specifications. In addition to various terms of incarceration, all
                           defendants were collectively and individually held responsible for
                           payment of $1.5 million in restitution to the Government.

                                           M i ne Safe ty Applianc es, I nc orpor ated ( MSA),
 “MSA illegally stored a mixture of        Pittsburgh, Pennsylvania, pled no contest to a criminal
 pentaborane and other boron               information charging it with one count of illegal storage
 hydrides, [an] ignitable and              of hazardous waste and was sentenced to a $350,000
 reactive hazardous waste...”              fine. MSA illegally stored a mixture of pentaborane and
                                           other boron hydrides, which consti-tute ignitable and
                                           reactive hazardous waste, at its Callery Chemical



                                                 16
Semiannual Report to the Congress                                 Special Emphasis Area--Environment




                            Division facility in Evans City, Pennsylvania, in an area that was not a
                            permitted hazardous waste storage facility.

                            A former asbestos abatement supervisor at Del-Tray Construction
                            Management Company, Incorporated (Del-Tray), Wilmington, Delaware,
                            was sentenced to 6 months house arrest, 3 years probation and a $3,000
                            fine for one count of violating the Clean Air Act. An investigation found
                            that the supervisor violated the Act while performing under a contract for
                            asbestos removal from a building at Dover Air Force Base, Dover,
                            Delaware.

                            IT-Davy-McKee Corporation entered into a $4.3 million civil settlement
                            to resolve fraud allegations related to IT-Davy’s performance of an
                            environmental cleanup contract administered by the USACE. IT-Davy
                            was a joint venture between the International Technology Corporation
                            and the Davy-McKee Corporation. On behalf of the EPA, the USACE
                            contracted with IT-Davy to perform an environmental cleanup at a New
                            Jersey landfill under the Federal Superfund Law. IT-Davy allegedly used
                            a complex accounting scheme to submit false claims through double
                            billings for labor and equipment costs. An administrative settlement of
                            $9.6 million in repudiated costs (contract reduction) was reached with
                            IT-Davy. Evidence gathered in the investigation enabled the USACE to
                            determine correct overhead rates during negotiations, which also
                            included labor and equipment cost double billings.

                                              Kerry Ellis, Sr., and Seawitch Salvage were found
 “Under Ellis’ direction...employees          guilty and sentenced for violations of the Clean Air
 removed asbestos...and illegally             Act, the Clean Water Act, the Rivers and Harbors
 dumped it into the Patapsco River.”          Act and making a false statement to the Govern-
                                              ment. Ellis was sentenced to 30 months confine-
                                              ment, 3 years supervised release, a $50,000 fine
                        and a $325 special assessment. Seawitch was sentenced to 5 years
                        probation, a $50,000 fine and a $1,325 special assessment. Ellis is the
                        president and general manager of Seawitch, a salvage company that
                        dismantles ships. The DRMS awarded Seawitch a ship breaking contract
                        to dismantle three decommissioned Navy minesweepers and remove all
                        hazardous material aboard the ships. The DRMS also awarded Seawitch
                        a contract to dis-mantle the USS CORAL SEA, a decommissioned Navy
                        aircraft carrier. Under Ellis’ direction, Seawitch employees removed
                        asbestos from one minesweeper and the USS CORAL SEA and illegally
                        dumped it into the Patapsco River. False documentation was then
                        provided to DRMS to conceal the illegal dumping.


                                                 17
Special Emphasis Area--Environment                                  Semiannual Report to the Congress




PROACTIVE                  The DCIOs continue to work with Federal, state and local environmental
EFFORTS, LIAISON           agencies to share information, discuss and pursue new investigative
AND TRAINING               methods and identify targets for potential investigation of environmental
                           crimes related to the DoD. For example, the DCIOs participate in various
                           environmental crime task forces in which they exchange intelligence on
                           potential targets with task force members from the Federal, state and
                           local level. The current downsizing and restructuring of the Military
                           Services has also raised environmental concerns of interest to the DCIOs.
                           For instance, the real estate associated with base closures is being turned
                           over to local community or private interests, requiring certification as to
                           environmental soundness. This process has revealed past abuses that
                           must be addressed. With the sale of surplus ships increasing, the ship-
                           breaking industry and process have become a growing environmental
                           concern. The DCIOs continue to develop partnerships with the DoD
                           agencies responsible for environmental-related operations (USACE,
                           DRMS and the Naval Facilities Engineering Command, for example) to
                           allow their agents to target for potential criminal investigation those DoD
                           contractors and sites that do not comply with contractual environmental
                           requirements. Recognizing the need to have agents skilled in the detec-
                           tion and investigation of environmental crimes, the DCIOs have been
                           seeking and developing specialized training programs in the area of
                           environmental crimes.

                           The continued pursuit of such cases not only serves as a deterrent, but
                           will help control costs and restore the public's confidence in the integrity
                           of the DoD with regard to protecting the environment.




                                                 18
Semiannual Report to the Congress                                  Special Emphasis Area--Environment




                                    This page left blank intentionally




                                                  19
                                                                   Semiannual Report to the Congress




CHAPTER TWO - SIGNIFICANT ACTIVITIES

INTRODUCTION              This chapter summarizes the significant activities of the Office of the
                          Inspector General components and their work with other members of the
                          DoD oversight community.

CRIMINAL                  The four Defense Criminal Investigative Organizations (DCIOs)
INVESTIGATIONS            continue to combat crime affecting the DoD and the Military Depart-
                          ments. The Defense Criminal Investigative Service (DCIS), the criminal
                          investigative arm of the OIG, focuses the bulk of its 337 civilian criminal
                          investigators on the investigation of procurement fraud by Defense
                          contractors and health care fraud by health care providers. The three
                          Military Department criminal investigative organizations, the Army
                          Criminal Investigation Command (CIDC), the Naval Criminal
                          Investigative Service (NCIS) and the Air Force Office of Special Investi-
                          gations (AFOSI), also investigate procurement fraud, but focus the
                          majority of their resources on other crimes against persons and property
                          affecting their respective Military Departments. The AFOSI and NCIS
                          also conduct counterintelligence investigations and operations. This
                          section focuses on the procurement, health care and other major fraud
                          investigations accomplished by the DCIOs.

 Procurement and          Figure 1 (page 20) displays the investigative results achieved by the four
 Health Care Fraud        investigative organizations during the period in the areas of procurement
 Investigative            fraud and health care provider fraud.
 Results

 Examples of Major        The following are examples of some of the more significant fraud cases
 Procurement              occurring during this semiannual period. It should be noted that in
 Fraud                    virtually all instances, the Defense Contract Audit Agency (DCAA)
                          played a critical role in supplying needed audit support.

                        A qui tam complaint brought by a former employee resulted in a $4.5
                        million civil settlement by Alliant Techsystems, Incorporated, and
                        Hercules, Incorporated. The settlement resolves allegations that Alliant
                        and Hercules illegally overcharged the Navy for labor costs on contracts
                                    implementing the Intermediate-Range Nuclear Forces (INF)
 “...Alliant and Hercules illegally Treaty. Alliant purchased Hercules in 1995. The investi-
 overcharged the Navy for labor gation disclosed that managers at Alliant and Hercules
 costs on contracts...”             allegedly directed employees to mischarge labor time to the
                                    INF Treaty Program, even though management knew the


                                                20
Semiannual Report to the Congress




                                   PROCUREMENT FRAUD AND MAJOR HEALTH CARE FRAUD
                                            INVESTIGATIVE CASE RESULTS
                                               DCIS           CIDC           NCIS          OSD        Joint DCIO              Total
 Litigation Results - DoJ Only
 Indictments                                           72            3              15           4               23                   117
 Convictions                                           59            2              10           3               19                   93
 Civil Settlements/Judgments                           33            2               7           2               31                   75
 Monetary Outcomes
 DoJ Only                                   $17,724,796     $4,171,667     $23,848,291   $5,234,877   $106,643,901     $157,623,532
                                    1
 DoD Administrative Recoveries                 2,855,350      106,858         745,553      301,947      25,055,195        29,064,903
 Investigative   Recoveries2                   4,628,000             0         70,952       52,507                0           4,751,459
 Total                                      $25,208,146     $4,278,525     $24,664,796   $5,589,331   $131,699,096     $191,439,894
 1Includes   the results of military courts-martial.
 2
  Includes Government properties seized or otherwise recovered during investigations. Those properties may include items
  previously transferred to a Defense Reutilization and Marketing Office. Government property recovered by investigation is
  valued at original acquisition price, which may exceed the current fair market value.

                                                                Figure 1


                                        employees did not devote as much time to the contract as was charged to
                                        the Government. (DCIS/NCIS)

                                        Lockheed Martin Corporation (LMC), successor in interest to General
                                        Electric Company (GEC) Aerospace Controls Systems Department, the
                                        McDonnell Douglas Corporation (MDC), the Navy and the Department
                                        of Justice (DoJ) entered into an agreement to resolve allegations that
                                        GEC violated the Truth in Negotiations Act. The LMC agreed to pay the
                                        Government $7.9 million to resolve allegations that GEC failed to
                                        provide current, accurate and complete cost and pricing data to MDC
                                        during negotiations with the Navy for contracts to provide flight
                                        electronic control systems on the F/A-18 aircraft. As a result, the Govern-
                                        ment allegedly paid a higher price for the aircraft. LMC and MDC have
                                        not acknowledged any wrongdoing as part of this settlement. (DCIS/
                                        NCIS)

                                        Dolphin, Incorporated, Phoenix, Arizona, was sentenced to 5 years
                                        probation, a $1,415,674 fine, $84,326 in investigative costs and a $600
                                        special assessment. Dolphin previously pled guilty to three counts of
                                        fraud through commercial interstate carrier. Dolphin produces aluminum


                                                                   21
                                                                  Semiannual Report to the Congress




                                                   and steel castings used in military and commer-
“...Dolphin employees would sometimes
                                                   cial applications that include aircraft brake
return the part to the lot and replace it with
                                                   parts, missile guidance fins, machine gun flash
another until the specified lot sample was
                                                   suppressers and pistol frames. The investiga-
amassed.”
                                                   tion determined that Dolphin failed to perform
                                                   required quality control x-ray tests. The mili-
                         tary specification mandates that if one or more castings fail the lot sample
                         x-ray test, the failed parts must be rejected and the entire lot x-rayed.
                         However, when an x-ray revealed a defect in a casting selected for the lot
                         sample, Dolphin employees would sometimes return the part to the lot
                         and replace it with another until the specified lot sample was amassed.
                         This resulted in shipment of known defective parts. (DCIS/CIDC/
                         AFOSI)

                       The McDonnell Douglas Aerospace/Douglas Aircraft Company (DAC),
                       Long Beach, California, agreed to pay a $2 million civil settlement to
                       resolve allegations relating to cost mischarging on the C-17 Military
                       Transport Plane Program. The DAC did not admit liability. The suit
                       alleged that DAC accepted defective, nonconforming tooling items from
                       subcontractors for the C-17 to maintain the appearance of meeting
                                                    production milestones and to obtain prog-
“The suit alleged that DAC accepted                 ress payments. It was also alleged that DAC
defective, nonconforming tooling items from reworked some of the defective tooling and
subcontractors for the C-17 to maintain the         billed the rework under its prime contract
appearance of meeting production milestones with the Government, thereby double-
and to obtain progress payments.”                   billing the Government for the same tool.
                                                    (DCIS)

                         Employees of Hughes Electronics Technologies, Incorporated, a
                         subsidiary of Hughes Electronic Corporation, allegedly circumvented the
                         company’s internal control procedures to inflate work estimates and
                         falsely certify the accuracy of costs. As a result, the Air Force was
                         allegedly overbilled for work performed on a contract at McClellan Air
                         Force Base, California. The investigation resulted in a $5.5 million
                         settlement with Hughes. (AFOSI)

                         Components of Teledyne Systems Company, Incorporated, are
                         contractors on various Naval Sea Systems Command contracts in the
                         Friend or Foe Identification Program. Teledyne also repairs and cali-
                         brates sensitive testing equipment for commercial customers. Teledyne
                         allegedly charged the Government for the bulk of the company’s over-
                         head in connection with commercial repair and calibration activities. The


                                               22
Semiannual Report to the Congress




                            investigation resulted in a settlement of $13.95 million paid to the
                            Government by Teledyne. (DCIS/NCIS)

                            Stewart and Stevenson Services, Incorporated, of Houston, Texas, was
                            contracted by the Air Force to install power generation systems under a
                            program to design and construct long-range radar and ground entry sites
                            for the Kingdom of Saudi Arabia. Stewart and Stevenson failed to
                            disclose the true cost impact of a change order and falsely certified the
                            information. The investigation resulted in the company pleading guilty to
                            one criminal count of making a false statement. The company was
                            ordered to pay a $2 million criminal penalty, $3 million in restitution and
                            an additional $2 million in civil penalties. (AFOSI/DCIS)

                            Pall Aeropower Corporation, formerly Pall Land and Marine Corpor-
                            ation, while denying the allegations, agreed to pay a $2.2 million civil
                            settlement to settle allegations that it defrauded the DoD by overcharging
                            for air filters for the AH-1 Cobra helicopter. During negotiations, Pall
                            allegedly failed to reveal to Army negotiators that manufacturing
                            changes Pall intended to make in producing the filters would signifi-
                            cantly reduce Pall’s cost. As a result, the Army paid a higher contract
                            price and Pall earned a larger profit on the contract. (CIDC/DCIS)

 Examples of Health         A task force investigation resulted in a $4 million civil settlement
 Care Fraud                 between Vendell Healthcare, Incorporated, and its wholly-owned
                            subsidiaries (Vendell of Florida, Incorporated; Rivendell of Florida,
                            Incorporated; Rivendell of Bay County, Incorporated; and Altacare of
                            Florida, Incorporated) and four Government agencies. Vendell and its
                            Florida subsidiaries allegedly submitted approximately $15.5 million in
                            fraudulent claims to the Civilian Health and Medical Program of the
                            Uniformed Services (CHAMPUS), Medicare and the Federal Employees
                            Health Benefit Program (FEHBP). These claims allegedly included
                            billing for services not rendered, misrepresenting the level of services
                            (upcoding), billing for medically unnecessary admissions, extending
                            patients' lengths of stay when not medically necessary and submitting
                            claims for charges previously paid. Vendell filed for bankruptcy in March
                            1997, and the negotiated settlement amount was reduced. The companies
                            face possible administrative sanctions from CHAMPUS, Medicare and
                            the FEHBP. (DCIS/FBI/Department of Health and Human Services/
                            Office of Personnel Management)

                            Dr. Andrew S. Shankman was sentenced to 87 months incarceration, 3
                            years supervised release, 400 hours community service and a $6,300
                            special assessment. Shankman was found guilty of 125 counts of

                                                  23
                                                                Semiannual Report to the Congress




                                                conspiracy, mail fraud, wire fraud, dispensing
“Shankman was found guilty of 125
                                                controlled substances and money laundering.
counts of conspiracy, mail fraud, wire
                                                Thomas Davidson, co-owner and operator of
fraud, dispensing controlled
                                                Shankman/Davidson Psychiatric Management,
substances and money laundering.”
                                                Incorporated (SDPMI), pled guilty to mail and wire
                                                fraud and money laundering. He was sentenced to
                         2 years imprisonment and 3 years probation. His grandson, Michael E.
                         Davidson, SDPMI’s former vice president for adminstrative operations,
                         was sentenced to 33 months incarceration, 3 years supervised release and
                         400 hours community service after pleading guilty to conspiracy. The
                         investigation disclosed that Shankman and his company, SDPMI,
                         employed unlicensed therapists to provide mental health services to
                         CHAMPUS, Medicare and Medicaid beneficiaries. Shankman then billed
                         the Government programs, from which SDPMI received over $5.2
                         million, as if he personally provided the services. (DCIS/FBI/Internal
                         Revenue Service/Georgia Department of Medical Assistance/Office of
                         the Secretary of State for Georgia)

                                                  Several individuals conspired to defraud
“Several individuals conspired to...make          health insurers by directing employees of Big
unnecessary ambulance runs, make                  Creek Volunteer Rescue Squad, Incorporated,
ambulance runs without emergency medical to make unnecessary ambulance runs, make
technicians and sign forms for bogus              ambulance runs without emergency medical
ambulance runs.”                                  technicians and sign forms for bogus ambu-
                                                  lance runs. Big Creek’s ambulance service,
                                                  through Quality Ambulance Service, sub-
                      mitted fraudulent health care claims to CHAMPUS and Medicaid using
                      Quality's provider number for payment. Wesley Miller, Jr., former Big
                      Creek chairman of the board and mayor and chief of police for War, West
                      Virginia, was sentenced to 33 months imprisonment, 36 months proba-
                      tion, a $10,000 fine and $12,100 in restitution for conspiring to commit
                      mail fraud. As an additional result of the investigation, Phillip Falgiani,
                      owner of Falgiani Salvage Company, pled guilty to conversion of public
                      property and was sentenced to 5 years probation and $10,538 in restitu-
                      tion. Both Falgiani and the company were debarred. Falgiani knowingly
                      converted for personal use Federal surplus property provided to Big
                      Creek under the Federal Excess Property Program. (DCIS/West Virginia
                      OIG Medicaid Fraud Control Unit/West Virginia State Police Bureau of
                      Criminal Investigations)




                                              24
Semiannual Report to the Congress




 Suspensions and            The numbers of contractors and individuals suspended and debarred as a
 Debarments                 result of DoD criminal investigations are shown in Figure 2.
 Resulting from
 Investigations

                   SUSPENSIONS AND DEBARMENTS RESULTING FROM INVESTIGATIONS
                                                Defense Criminal Investigative Organization (DCIO)
                                                                                           Joint
                                    DCIS            CIDC          NCIS        OSD          DCIO         Total
 DoD CONTRACTOR ACTIONS
 Suspensions
     Companies                             33               1            10         0              18           62
     Individuals                           47               1            15         1              19           83
         Total                             80               2            25         1              37       145
 Debarments
     Companies                             10               5            7          1              15           38
     Individuals                           21               0            17         5              31           74
         Total                             31               5            24         6              46       112

                                                    Figure 2




                                                       25
                                                                                              Semiannual Report to the Congress




    Other Criminal                   In addition to the matters listed above, the DCIOs conducted various
    Investigative                    other significant investigations involving large-scale thefts and non-
    Results                          procurement related fraud. The results of those investigations are
                                     presented in Figure 3. As in previous reports, the statistics shown in the
                                     table do not include general crime investigations or counterintelligence
                                     activities.

                                         OTHER CRIMINAL INVESTIGATIVE RESULTS
                                                                                   Totals for Period
                                                            DOJ                  State/Local/Foreign                    Total
    LITIGATION RESULTS
    Indictments
        DCIS                                                             43                               9                             52
        CIDC                                                              4                           12                                16
         NCIS                                                            25                           27                                52
        OSI                                                              11                               3                             14
        Joint DCIO                                                        7                               0                              7
                Total                                                    90                           51                             141
    Convictions
         DCIS                                                            28                           14                                42
        CIDC                                                             22                           12                                34
        NCIS                                                             51                           38                                89
        OSI                                                              17                               6                             23
        Joint DCIO                                                        8                               1                              9
                Total                                                   126                           71                             197




                                                                                                               State/
                                                                                                               Local/
                                                         DoJ                          DoD                     Foreign           Total
MONETARY OUTCOMES                                                                     1               2

         DCIS                                          $7,472,000              $10,000        $731,000          $72,000         $8,285,000
        CIDC                                                88,000             593,000        1,232,000           2,000          1,915,000
         NCIS                                             469,000             4,042,000       2,356,000          66,000          6,933,000
        OSI                                                595,000             329,000         748,000           20,000          1,692,000
        Joint DCIO                                       2,436,000               6,000       21,536,000           1,000         23,979,000
                Total                                 $11,060,000         $4,980,000        $26,603,000        $161,000     $42,804,000
1
 Administrative settlements and recoveries, and results of military courts-martial.
2
 Investigative seizures and recoveries. Includes Government properties seized or otherwise recovered during investigations and may
   include items previously transferred to a Defense Reutilization and Marketing Office. Government property recovered by investiga-
   tion is valued at the original acquisition price, which may exceed the current fair market value.

                                                            Figure 3
                                                                   26
Semiannual Report to the Congress




 Examples of Other
 Criminal
 Investigations

  Espionage                 Information developed by the Foreign Counterintelligence Squad of the
                            FBI disclosed that during an alleged vacation trip in the late 1980s,
                            Dr. Peter Hoong-Yee Lee provided classified information to the People’s
                            Republic of China. Lee gave a series of technical lectures in which he
                            discussed his classified research work while employed by TRW
                            Corporation, Redondo Beach, California. The data Lee provided signifi-
                            cantly assisted China in its nuclear weapons development program. As
                            the result of a joint investigation by the FBI and DCIS, Lee pled guilty to
                            transmission of Defense information and making a false statement to a
                            U.S. Government agency. (DCIS/FBI)

  Kickbacks               Robert Berger, former owner and sole shareholder of Royce Aerospace
                          Materials Corporation was sentenced to 38 months in jail and 3 years
                          supervised probation. Berger pled guilty to bankruptcy fraud, violating
                                       the Anti-Kickback Act and a conspiracy to defraud the
 “Robert Berger...was sentenced Internal Revenue Service (IRS). Royce, a subcontractor
 to 38 months in jail...”              that provided raw materials such as aluminum and
                                       titanium to DoD prime contractors, filed for bankruptcy
                                       protection in 1993.

                       During the bankruptcy period, Berger directed a customer to issue checks
                       for monies owed to Royce to a fictitious company wholly owned and
                       controlled by Berger. Between 1990 and 1996, Berger conspired to
                       devise a scheme to divert about $1.2 million in checks from Royce. The
                       checks were claimed as false business expense deductions on Royce
                       corporate tax returns. Cash from the diverted funds was used to pay kick-
                                           b a ck s t o pu r c ha s i n g a g en t s f or p r i m e Do D
 “Cash from the diverted funds was         contractors, including Israel Aircraft Industries
 used to pay kickbacks to prime DoD International, Incorporated (IAII), in return for bid
 contractors...”                           information and securing DoD subcontracts for
                                           Royce.

                            Eugene Ellerby, who processed checks for Berger in the scheme, pled
                            guilty to income tax issues and was sentenced to 3 years probation and
                            $2,500 restitution. Milton Beresford, IAII’s purchasing agent for raw
                            material, pled guilty to illegal receipt of kickbacks and tax evasion,
                            having received approximately $57,000 in cash kickbacks from Royce.
                            Richard Doherty, retired IAII purchasing manager, provided fictitious
                            company names, took checks made out to the bogus companies to Puerto

                                                  27
                                                                  Semiannual Report to the Congress




                         Rico banks for processing, then returned cash to Berger. Doherty pled
                         guilty to conspiracy to commit corporate income tax evasion and to pay
                         kickbacks. Alan Dunkirk, a purchasing manager for Beta Shim,
                         Incorporated, allegedly received kickbacks from Royce in return for bid
                         information on subcontracts awarded by Beta. Dunkirk pled guilty to tax
                         evasion. (DCIS/IRS)

 Conspiracy           A number of companies and individuals pled guilty to conspiracy and/or
                      related charges after participating in a scheme to overcharge the Defense
                      Fuel Supply Center by overstating prices, falsifying competitive quotes,
                      concealing overcharges in payments to shell corporations and dividing
                      the proceeds among co-conspirators. Jacqueline Plecas, president of
                      Med-Atlantic Petroleum Corporation (MAPCO), was sentenced to 27
                      months in prison, 3 years probation and $15,000 restitution. A summary
                      judgment of $56 million was ordered against Plecas and MAPCO. John
                      Santana, President, International Marine Fuels (IMF), was sentenced to
                      12 months and 1 day in prison and 3 years probation. Santana will be
                      personally liable for $1 million in restitution if IMF fails to pay
                                      restitution of $2.1 million. Plecas and MAPCO, and
“A summary judgment of $56            Santana and IMF, overcharged the DoD in excess of $20
million was ordered against Plecas million and $1 million, respectively, by misstating and
and MAPCO.”                           inflating fuel prices for bunker fuel in excess of those
                                      permitted to be charged under contracts, and Plecas
                      made false statements during a bankruptcy proceeding for MAPCO.
                      Plecas and IMF have been suspended from Government contracting;
                      debarment proceedings are pending. Constantine Vagionis, former
                      MAPCO corporate attorney, established off-shore corporate accounts
                      used to transfer monies between conspirators. Vagionis pled guilty to
                      income tax issues and was sentenced to 4 months home confinement, 2
                      years probation and fined $2,000. (DCIS/NCIS/IRS)

 Disaster Relief         Alexandria Mobile Home Sales (AMHS) was awarded a contract by the
 Fraud                   U.S. Army Corps of Engineers (USACE) to construct a mobile home
                         park site in Albany, Georgia, for flood victims of Tropical Storm Beryl.
                         An investigation disclosed that officers of AMHS conspired to, and
                         submitted requests for, payment to the Government that included false
                         Prompt Payment Act certificates. Doyle Luneau, Financier, AMHS, was
                         sentenced to 42 months confinement, required to enter into supervised
                         release (probation) for a period of 3 years, ordered to pay $380,696
                         restitution and a $2,500 fine. William H. Edmonds, Owner/President,
                         AMHS, was sentenced to 30 months confinement, ordered to pay
                         $380,696 in restitution and required to enter into supervised release for a
                         period of 3 years and complete 350 hours of community service.

                                               28
Semiannual Report to the Congress




                            H. Gayle Marshall, attorney for AMHS, was sentenced to 13 months con-
                            finement, ordered to pay a $5,000 fine, ordered to surrender his license to
                            practice law for a period of 3 years and, upon release from confinement,
                            required to complete 500 hours of community service. (CIDC/DCIS)

  False Claims              Global Associates Limited (Global), an engineering and professional
                            services firm located in Falls Church, Virginia, was a primary subcon-
                            tractor on a contract awarded by the Naval Undersea Warfare Center
                            (NUWC), New London, Connecticut, to conduct analysis to help formu-
                            late Navy technology requirements and evaluate submarine self defense
                            initiatives. During 1994, Global allegedly submitted false claims for
                            costs incurred under various other contracts or business efforts unrelated
                            to the NUWC contract. Global paid the United States $1 million plus
                            interest to settle civil and criminal false claims allegations. (NCIS/DCIS)

  Product                   The Pizzagalli Construction Company, Incorporated (PCCI), agreed to
  Substitution              pay $950,000 to settle all allegations associated with a qui tam complaint.
                            PCCI allegedly falsified data to disguise various construction defects in
                            the prototype barracks the company built at Fort Bragg, North Carolina,
                            under a contract awarded by the USACE. (CIDC)

                            A investigation resulted in Hydroaire, Incorporated, Chicago, Illinois,
                            agreeing to pay $150,000 to settle violations of the False Claims Act.
                            Hydroaire allegedly delivered non-conforming linear actuating cylinders/
                            accumulators. Those parts are classified as a critical application item for
                            use on the Trident submarine. Testing disclosed that the cylinders/accum-
                            ulators did not meet certified military specifications. A catastrophic
                            failure of a hydraulic accumulator is considered dangerous because of its
                            potential for personal injury and equipment damage. Failure of the
                            accumulator could result in a life-threatening hazard to personnel and the
                            boat from serious impact damage from projectiles, as well as a fire from
                            the discharge of oil and oil mist. (NCIS/DCIS)

                       As a result of an investigation conducted by the DCIOs and the National
                       Aeronautics and Space Administration (NASA), Transistor Devices,
                       Incorporated (TDI), agreed to pay the Government $929,000 in cash and
                                                deliver a full set of power unit drawings and the
 “TDI...was a sole source supplier for the materials necessary to fabricate and replace 263
 Navy’s Aegis and Phalanx Programs....          bias boards. TDI, an aerospace company head-
 Allegedly, TDI knowingly supplied non- quartered in Cedar Knolls, New Jersey, was a
 conforming power supply units.”                sole source supplier of power supplies for the
                                                Navy's AEGIS and Phalanx Programs and
                                                supplied parts for the SLQ-32 and MK-10

                                                  29
                                                                Semiannual Report to the Congress




                         Missile Programs. Allegedly, TDI knowingly supplied nonconforming
                         power supply units. (DCIS/NCIS/AFOSI/CIDC/NASA)

                         A multi-district task force investigation uncovered violations of mail
                         fraud, interstate transportation of stolen property and the anti-kickback
                         statutes. The task force identified numerous companies paying kickbacks
                         to prime DoD contractors for accepting substandard or faulty aircraft
                         fasteners and components ultimately used in contracts with the DoD, the
                         Federal Aviation Administration and commercial companies. One of the
                         companies, Astral Air Parts, Incorporated, of Elwood, New Jersey,
                         owned and operated by Joseph Polesovsky, ordered and bought ordinary
                         commercial fasteners to supply to Government customers that ordered
                         military specification parts. The commercial parts were supplied as
                         Government specification parts to DoD contractors with no evidence that
                         they met appropriate specifications. Polesovsky was sentenced to 6
                         months home confinement, 3 years probation, a $20,000 fine and 100
                         hours community service. Astral Air Parts, Incorporated, was sentenced
                         to 2 years probation and a $48,000 fine. Another company, Transpec
                         Fasteners, Fort Worth, Texas, defrauded defense contractors out of
                         approximately $150,000 by selling ordinary commercial fasteners and
                         connectors when the parts should have complied with rigid Government
                         specifications. The fasteners were designated for use in the AGM-86
                         launch cruise missile. Transpec was sentenced to pay a fine of $120,000.
                         (NCIS/AFOSI/DCIS/Department of Transportation)

 Defective Pricing       Raytheon Company, Lexington, Massachusetts, agreed to pay $21
                         million to settle a pricing dispute with the Government on certain Navy
                         contracts. The settlement addresses defective pricing claims relating to
                         the negotiation and award of 14 Navy contracts to install and refurbish
                         sonar systems on Navy submarines and surface ships. (NCIS)

                       Dutch and Belgian firms and a U.S. subsidiary agreed to pay $65 million
                       in criminal fines. The Dutch, Belgian and Texas firms were charged with
                       participating in international conspiracies, to include bid rigging, in
                       marine construction and transportation service contracts. The fines stem
                       from two separate investigations. In an investigation conducted by the
                       DCIS and the Department of Justice (DoJ) Antitrust Division, HeereMac
                       and its commercial director were charged with participating in an inter-
                                    national conspiracy to rig bids for heavy-lift marine
“Dutch and Belgian firms and a construction services. In a separate investigation conducted
U.S. subsidiary agreed to pay by the NCIS and the Antitrust Division, Dockwise N.V.,
$65 million in criminal fines.”     Dockwise USA Incorporated, Christiaan B. Van Der Zwan
                                    and Bastiaan A. De Jong, both former officials of Dockwise

                                              30
Semiannual Report to the Congress




                            N.V., were charged with international conspiracy to rig bids on five
                            Military Sealift Command (MSC) contracts in 1992, for semisubmersible
                            heavy-lift transportation services for the Navy. Semisubmersible heavy-
                            lift transport vessels move extremely large cargo, such as drilling rigs and
                            other ships. A $4 million civil recovery that is part of the settlement will
                            go to the MSC.

HOTLINE                     The OIG, DoD continues to encourage military members, DoD
                            employees, DoD contractor employees and the public to contact the DoD
                            Hotline to report occurrences of fraud, waste and mismanagement.
                            During this reporting period, the Hotline received 9,485 telephone calls
                            and letters, resulting in the initiation of 1,160 cases--186 of those cases
                            dealt specifically with reprisal or program integrity issues. The distribu-
                            tion of all opened cases is detailed in Figure 4, page 31. During the same
                            period, the Hotline closed 1,430 cases. Since 1982, over $405 million has
                            been recovered and saved as a direct result of Hotline initiated investi-
                            gations, inquiries or audits initiated in reponse to information initially
                            provided to the Hotline.

                            On March 10, 1998, the DoD Hotline staff hosted a conference of 43
                            representatives from 26 DoD and Military Service components that
                            regularly interact with the Hotline. The conference provided for profes-
                            sional interaction to improve Hotline functions Department-wide.

                            Additionally, during this reporting period, the DoD Hotline staff
                            provided assistance to several non-DoD agencies in establishing fraud
                            hotlines. Those include the Central Intelligence Agency, the Equal
                            Employment Opportunity Commission, the Environmental Protection
                            Agency, the State of Texas and the Federal Republic of Germany.

 Significant Hotline        The Navy Exchange Service Command (NEXCOM) repaid $8.7 million
 Complaints                 for appropriated fund support that it improperly received for costs related
                            to the lease of its headquarters building in Virginia Beach, Virginia, and
                            the move of its headquarters from New York to Virginia Beach. This
                            recovery was a result of an initial complaint to the DoD Hotline and
                            subsequent congressional interest. The Naval Inspector General investi-
                            gation found that NEXCOM improperly used appropriated funds to
                            reimburse nonappropriated funds, in violation of DoD policy and
                            congressional direction, and that the Naval Supply Systems Command
                            improperly provided expired funds to NEXCOM for relocation expenses
                            in violation of 31 U.S.C. 1553.



                                                  31
                                                                Semiannual Report to the Congress




               A joint DCIS, OSI, NCIS and FBI investigation substantiated a hotline
               complaint that a major Defense contractor intentionally failed to observe
               contractually mandated quality assurance measures when manufacturing
               circuit boards and wire assemblies used in aircraft engine electronic
               controls. The contractor also falsified hourly labor performance records.
               Under the terms of a settlement agreement with the DoJ, the manu-
               facturer admitted to not adhering to contracted manufacturing methods
               and paid $950,000 in restitution to the U.S. Treasury.

               Special agents from the CIDC and the FBI substantiated a hotline
               complaint of large-scale theft and diversion of property. Government
               property custodians devised a scheme involving combat support vehicles
               not listed on unit property inventories. The individuals used Government
               funds to purchase vehicles and other equipment and then divert the
               equipment for personal use. As a result of the investigation, savings to
               the Government included $2.6 million in Defense Reutilization and
               Marketing Office property returned to Government control and $654,841
               realized as a cost avoidance. The primary subject of the investigation was
               sentenced to serve 4 months in prison and pay a $4,000 fine. He received
               a General Discharge from the Army Reserve on the basis of his convic-
               tion and retired from Federal civilian service in the face of impending
               removal action.



                             DOD Hotline
                           Case R eferral for
                           First Half of 1998

300
        275
                                                       248
250
                   222

200
                                                                160
150                       133
                                                                         1160

100
                                               71
                                   51
50


  0
      A RM Y     NA VY   AF      USM C        DL A   Do DIG   OTH ER



                                Figure 4

                                         32
Semiannual Report to the Congress




ADMINISTRATIVE              The OIG, DoD Departmental Inquiries Office conducts investigations
INVESTIGATIONS              and also performs oversight of investigations conducted by the Military
                            Departments. Those investigations pertain to:

                                    •   Allegations of reprisal against military members, Defense
                                        contractor employees and nonappropriated fund employees.

                                    •   Allegations that military members were referred for mental
                                        health evaluations without being afforded the rights prescribed
                                        in the DoD Directive, “Mental Health Evaluations of Members
                                        of the Armed Forces.”

                                    •   Noncriminal allegations against senior military and civilian
                                        officials within the DoD.

 Whistleblower              During the reporting period, the Special Inquiries Directorate received
 Reprisal Activity          149 new allegations involving complaints of whistleblower reprisal; 41
                            of those cases were closed after a preliminary analysis determined further
                            investigation was not warranted. Of the open cases, we closed 185 cases
                            during the reporting period. Approximately 20 percent of the reprisal
                            allegations were substantiated or partially substantiated. We also closed
                            29 cases concerning violations of the DoD Directive on referrals for
                            mental health examination. Figures 5 and 6 (page 33) show results of
                            whistleblower reprisal activity during the period.

 Examples of
 Substantiated
 Whistleblower
 Reprisal Cases

  Military Reprisal         An investigation found that an Army captain in the Texas National Guard
                            was the victim of whistleblower reprisal when her promotion and an
                            assignment were delayed, and she received an adverse personnel action.
                            We also found that a responsible management official’s comments that
                            “officers do not go to the IG” and that such a complaint “would follow
                            you through your career” could be perceived as an attempt to restrict the
                            captain’s right to communicate with an Inspector General.

                            An Air Force investigation substantiated allegations by a major in the
                            Alaska Air National Guard that officers in his chain of command initiated
                            withdrawal of his Federal recognition and separation in reprisal for his
                            protected communications regarding problems within that Guard unit.


                                                   33
                                                                                                    Semiannual Report to the Congress




                              W histleblower Reprisal Inquiries
                                By Category of Employee *
                                      Open As Of March 31, 1998


     320
                              273
     280
     240
     200
     160
     120
       80
       40                                                         11                                  14
         0
                         M ilita ry                             N AF                              C o ntra c t


* This graph provides a breakdo wn of reprisal cases according to the category of employee w ho filed the complaint (Service
M em ber, non-appropriated fund employee or employee of a Defense contractor). In addition to the 2 98 reprisal cases sho wn here,
Special Inquiries also had 23 open cases involving other matters, such as alleged im proper mental health evaluations.




                                                      Figure 5




                    Military Whistleblower Reprisal Inquiries
                         By Office Conducting Review *
                                     Open As Of March 31, 1998

             11 0
                         98                                                                            95
             10 0

              90

              80

              70

              60                                        54
              50

              40
                                        32
              30

              20

              10                                                                        5
                                                                         2
               0
                       Army            N a vy         US A F           US M C       D e fe ns e      Spe cia l
                                                                                    Ag e ncie s     Inquirie s


* This graph provides a breakdown of military whistleblower reprisal inquiries according to the organization conducting the
inquiry. Inquiries completed by other organizations are submitted to the Special Inquiries Directorate for review. The 95
Special Inquiries cases include initial analysis of new complaints and active investigations.



                                                      Figure 6

                                                                34
Semiannual Report to the Congress




                            An Army sergeant alleged that he received a written counseling state-
                            ment, an adverse performance evaluation and was barred from reenlist-
                            ment in reprisal for filing equal opportunity complaints. An investigation
                            substantiated the sergeant’s reprisal allegations.

  DoD Contractor            Four employees of a Defense contractor alleged they were fired in
  Employee Reprisal         reprisal for reporting concerns to a representative of the USACE about
                            safety, working conditions and pay. We substantiated that three of the
                            contractor employees were fired in reprisal for their whistleblowing
                            activities. Allegations of reprisal brought by the fourth contractor
                            employee were not substantiated.

 Senior Official            Figures 7 and 8 (page 35) show results of activity on senior official cases
 Activity                   during the period. On March 31, 1998, there were 264 ongoing investiga-
                            tions into senior official misconduct throughout the Department, down
                            from the 343 cases that we reported open as of October 1, 1997. Over the
                            past 6 months, we closed 199 senior official cases; 40 of the closed cases
                            (20 percent) contained substantiated allegations.

 Examples of
 Substantiated
 Senior Official
 Cases

  Inappropriate             Two inquiries were completed that substantiated allegations of
  Behavior in the           inappropriate behavior in the workplace on the part of senior DoD
  Workplace                 officials. In one case, a senior official was found to have made comments
                            of an overt sexual nature and engaged in other conduct that was
                            perceived by subordinates as offensive. Our inquiry concluded that the
                            individual’s behavior on those occasions was inappropriate for a Federal
                            employee and violated the DoD policy on sexual harassment.

                            In the second inquiry, we found that a senior DoD official engaged in
                            unwelcome touching of another employee on one occasion and, on
                            several occasions, told jokes and made comments of a racial or sexual
                            nature that were considered inappropriate by numerous members of his
                            staff. We concluded that his conduct did not constitute sexual harassment
                            but, nevertheless, was inconsistent with the type of responsibilities that
                            are assigned, by regulation, to senior leaders. In addition, we found that
                            the official borrowed money from employees receiving less pay than
                            himself, in violation of DoD ethics regulations. In both of the foregoing
                            inquiries, we provided the results of our work to appropriate management
                            officials for consideration of corrective action.

                                                  35
                                                                                             Semiannual Report to the Congress




                                           Program Integrity
                                      Senior Official Inquiries Open
                                          As of March 31, 1998
    160
                  14 1
    140
    120
    100
     80
                                                                                            57
     60
     40
                                       20             22                                                     22
     20                                                                   2
       0
                Ar my                 Navy         USAF               USM C              De fe nse        Program
                                                                                         Agencies         Integrity

This graph provides a breakdown of senior official cases
according to the organization conducting the inquiry. Inquiries
completed by other organizations are submitted to the Program         Total Open Cases: 264
Integrity Directorate for review.


                                                  Figure 7




                        Program Integrity
    Nature of Substantiated Allegations Against Senior Officials
                     During 1st Half FY 1998
                                                S e xual
                                             H aras s me nt/
                                               Impro pe r
                                                                  Fa ilure to A ct
                                             R e latio ns hip
                                                                       1 0%               M is us e o f
                                                 1 0%
                                                                                           Po s ition/
                  O the r M is co nduct                                                   A utho rity
                         1 7%                                                                1 5%




                         Impro pe r
                    Pe rs onne l A ction
                                                                      M is us e G ov't
                           1 7%
                                                                         Prope rty /
                                                                        R e s o urce s
                                                                            3 1%




                    Total Cases: 199                        Substantiated: 40

                                                    Figure 8

                                                            36
Semiannual Report to the Congress




AUDITING                    Our auditors and those of the Military Departments issued 245 audit and
                            evaluation reports during the period, identifying $3.9 billion in potential
                            monetary benefits. See Appendix A for a listing of those reports, sorted
                            by major subject area. Appendices B and C list OIG reports with
                            quantifiable potential monetary benefits and overall DoD internal audit
                            followup activities, respectively. Appendix D summarizes DCAA
                            contract audit reports issued during the period.

 IG, DoD                    On March 18, 1998, the Inspector General testified before the Senate
 Testimony                  Armed Services Subcommittee on Acquisition and Technology regarding
                            the Status of Acquisition Reform in the Department of Defense.

                            The Inspector General noted the progress made in streamlining DoD
                            acquisition processes and that the OIG has been working with the
                            Department through its participation in management process action
                            teams, integrated process teams and other working groups to promote
                            improvements in DoD business activities. However, because of the size
                            and complexity of the DoD acquisition program, the OIG considers this
                            to be a high risk area and gives high priority to audit coverage of
                            acquisition programs and functions and to investigations of procurement
                            fraud.

                            One of the objectives of acquisition reform initiatives is to promote the
                            use of commercial business practices and the procurement of commercial
                            items. The Inspector General discussed the results of recent audits that
                            examined allegations that the Defense Logistics Agency (DLA) was
                            paying higher prices for aircraft spare parts using the contractors' catalog
                            prices than before it began procuring the parts in a commercial pricing
                            environment. The audits found that, while the contractors involved did
                            not violate any law or regulation, the Government was paying prices
                            considerably higher (71 percent in one case and 280 percent in the other)
                            than a prudent buyer would consider fair and reasonable.

                                               The Inspector General concluded that the DoD
     “The Inspector General concluded          has not learned how to be an astute buyer in the
     that the DoD has not learned how to commercial market. All of the transactions
     be an astute buyer in the commercial examined were sole source contracts, yet many
     market.”                                  should not have been. The DLA also failed to
                                               maximize its negotiating leverage. Despite the
                        fact that the DoD was the largest customer for most of the parts, the
                        Department received only modest discounts from one contractor's catalog
                        prices and none from the other.


                                                  37
                                                       Semiannual Report to the Congress




               Other areas where many opportunities for management improvement
               exist include program funding stability, testing, oversight of information
               system investments, service contracts, dual management of commercially
               available items, joint contracting and DoD accounting requirements.

               The Inspector General also expressed concern regarding proposals to
               minimize or eliminate some of the tools that have historically proven
               valuable in Government oversight efforts, including the False Claims
               Act, the Truth in Negotiations Act and the work of the DCAA.
               Additionally, there has been discussion of eliminating cost principles,
               cost accounting standards and contract audits. While advocating the use
               of reasonable commercial practices when there is a healthy, competitive
               marketplace, the Inspector General noted that, frequently, the DoD is
               buying unique military weapons from a few dominant suppliers and
               market forces do not exist. In those circumstances, the DoD has an
               obligation to act as an informed consumer and must rely on all available
               oversight tools to verify that what is paid is reasonable and taxpayer
               dollars are properly safeguarded.

               The Inspector General's testimony concluded by emphasizing that,
               despite the progress made by reform initiatives, there are still many
               problems in the acquisition area and much work to be done. This is an era
               of turbulence and considerable risk for the Department. Sound and
               realistic management efforts, coupled with effective and efficient
               oversight, are essential to the Department's ultimate success in coping
               with that risk and making acquisition reform initiatives work.

Single Audit   The Inspector General Act of 1978 requires that we take appropriate
Program        steps to assure that work performed by non-Federal auditors in support of
               Government programs complies with the standards established by the
               Comptroller General. The overall objective of the Single Audit Program
               is to reduce the audit burden on the agencies and institutions while
               ensuring that Government funds are properly accounted for and
               expended. We conducted 674 desk reviews of organizations for which the
               DoD has cognizance or oversight responsibilities to assure the audit
               reports meet applicable requirements. We conducted quality control
               reviews and issued four reports that focused on the qualitative aspects of
               the audits. Although quality was generally good, we had findings that
               included: untimely issuance of single audit reports, incorrect statements
               regarding type of indirect cost rate applied, missing required reports on
               compliance, incomplete management representation letters and lack of
               specific training in governmental auditing.


                                    38
Semiannual Report to the Congress




                            As a result of our reviews, we referred Price Waterhouse LLP, Raleigh,
                            North Carolina, to the American Institute of Certified Public Accountants
                            and the North Carolina State Board for deficiencies in its fiscal year 1994
                            and 1995 audits of Shaw University.

                            We are currently working with the U.S. Census Bureau’s Single Audit
                            Clearinghouse staff to ensure that centralized information compiled
                            under the Single Audit Act is more timely and relevant. Although
                            information related to recipients of Federal awards is currently posted on
                            the internet, much of the information is not useful.

 Navy Audit                 In September 1997, the Navy announced a number of changes to
 Funding                    planning, programming and budgeting for the Naval Audit Service. One
                            significant initiative is that the cost of audits of Naval Working Capital
                            Fund financial statements will be shifted from the Naval Audit Service
                            portion of the Operations and Maintenance, Navy appropriation, to the
                            accounts of various Working Capital Fund Commands, which will
                            reimburse the Audit Service. A similar reimbursable arrangement will
                            fund Audit Service work on the Naval and Marine Corps General Funds.
                            The IG, DoD has not objected to this funding arrangement, but will
                            review its impact, including any perceived impingement on auditor
                            independence or on the effectiveness of the mandatory financial
                            statement audits, as part of our audit policy and oversight program.

INTELLIGENCE                During this reporting period, the Office of Intelligence Review further
REVIEW                      developed its oversight capacity with respect to the DoD intelligence
                            agencies. Coordination was effected, not only with the intelligence
                            agencies themselves, but also with cognizant Congressional oversight
                            committees and with related oversight organizations in other Executive
                            Departments. Various joint projects have been initiated covering
                            significant cross-agency issues.

                            For additional information regarding specific work performed, see the
                            Classified Annex to this report.




                                                  39
Semiannual Report to the Congress                                                             Appendix A


                            APPENDIX A*
    REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS




 Excludes base level reports issued by the Air Force Audit Agency. Includes evaluation reports issued by
 the IG, DoD.

 Copies of reports may be obtained from the appropriate issuing office by calling:

                  OIG, DoD                                 Army Audit Agency
                  (703) 604-8937                           (703) 681-9863

                     Naval Audit Service                   Air Force Audit Agency
                     (703) 681-9126                        (703) 696-8027




                            Summary of Number of Reports by Issue Area
                                October 1, 1997 - March 31, 1998

                                           IG, DoD            Military Depts              Total
   Finance and Accounting                        31                       51                   82
   Acquisition Program and                       30                       12                   42
   Contractor Oversight
   Information Technology                        16                       15                   31
   Resources
   Logistics                                      7                       21                   28
   Construction and Installation                  5                       14                   19
   Environment                                    6                       11                   17
   Quality of Life                                1                        8                      9
   Forces Management                              1                        7                      8
   Intelligence                                   3                        2                      5
   Health Care                                    1                        1                      2
   Total                                        101                      142                  243
   The IG, DoD, also issued 4 reports on audit and criminal investigative oversight reviews and one
   testimony report.


*Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(6).



                                                   A-1
Appendix A                                                          Semiannual Report to the Congress


                                    98-047 Use of Foreign              98-081 Use of the Foreign
Acquisition Program                 Comparative Testing Program        Comparative Testing Program for
and Contractor                      Funds for the BOL Expendable       the Finnish Nickel Cadmium
                                    Countermeasures Dispenser          Battery (CLASSIFIED)
Oversight                           (1/15/98)                          (2/23/98)

                                    98-049 DoD Sensitive Support       98-083 Defense Manufacturing
IG, DoD                             Focal Point System                 Technology Program (2/25/98)
                                    (CLASSIFIED) (1/20/98)
98-004 Transition of Navy                                              98-084 Management of the
Missile Acquisition Programs                                           1994 Contracts for Developing
From Program Management             98-053 Pioneer Unmanned            the Tomahawk Baseline
Offices to Support Commands         Aerial Vehicle Program             Improvement Program and
(10/7/97)                           (1/22/98)                          Producing the Tomahawk
                                                                       Missile (FOUO) (2/26/98)
98-005 Use of Foreign Materiel      98-055 Reporting Foreign
Exploitation Results (10/8/97)      Comparative Testing Project        98-087 Cost of SSN-21 Class
                                    Costs (1/23/98)                    Submarines (3/6/98)
98-011 Transition of Air Force
Missile Acquisition Programs        98-063 Defense Logistics           98-088 Sole-Source Prices for
From the Program Executive                                             Commercial Catalog and
                                    Agency Product Quality
Officers to the Air Force                                              Noncommercial Spare Parts
                                    Deficiency Program (2/5/98)
Materiel Command (10/23/97)                                            (FOUO) (3/11/98)

                                    98-064 Commercial and              98-089 Special Access Program
98-012 Federal Acquisition          Noncommercial Sole-Source          Security Issues (FOUO)
Computer Network Central            Items Procured on Contract         (3/11/98)
Contractor Registration (CCR)       N000383-93-G-M111 (FOUO)
Program (10/22/97)                  (2/6/98)                           98-092 Threat Distributions for
                                                                       Requirements Planning at U.S.
98-026 Contractor Selection for     98-067 Access Reciprocity          Central Command and U.S.
the Development of the Range        Between DoD Special Access         Forces Korea (CLASSIFIED)
Rule Risk Methodology               Programs (CLASSIFIED)              (3/20/98)
(11/24/97)                          (2/10/98)
                                                                       98-096 Acquisition of the Army
98-032 Contracting Procedures                                          Tactical Missile System Anti-
                                    98-069 Air Force Special           Personnel/Anti-Materiel Block
for the Upgrade of theM113A3
                                    Access Program (SAP)               IA Program (3/25/98)
Armored Personnel Carrier
(12/5/97)                           (CLASSIFIED) (2/10/98)
                                                                       PO 98-603 Dispositioned
98-043 Supportability Planning      98-070 Short-Term Precision        Defective Pricing Audit Reports
for Fleet Introduction of the       Landing Capabilities for C-17      at the U.S. Army Aviation and
Strategic Sealift Ships             Aircraft (2/11/98)                 Troop Command (12/23/97)
(12/30/97)
                                    98-078 Acquisition of the          PO 98-604 Consolidation of
                                    Amphibious Landing Transport       DoD Contract Administration
98-044 Contractual Actions for
                                    Dock 17 Class of Ships             Services (1/15/98)
Urgent Procurement Require-
ments (12/31/97)                    (2/18/98)
                                                                       Army Audit Agency
98-045 Estimate-at-Completion       98-079 Corrosion Prevention        AA 98-30 Achieving
of the Contract for the Family of   Programs Within the Services       Efficiencies in Testing, U.S.
Medium Tactical Vehicles            for Tracked and Wheeled            Army Redstone Technical Test
Program (FOUO) (12/31/97)           Vehicles (2/20/98)                 Center (12/15/97)


                                                  A-2
Semiannual Report to the Congress                                                          Appendix A


AA 98-53 Contract Termination                                         AA 98-59 Unaccompanied
Process, U.S. Army                  Construction and                  Enlisted Personnel Housing
Communications-Electronics          Installation Support              Program (12/29/97)
Command (12/23/97)
                                                                      AA 98-62 Space Utilization,
AA 98-78 Contracting Policies       IG, DoD                           U.S. Army Air Defense Artillery
and Procedures, St. Paul District                                     Center and Fort Bliss (12/29/97)
U.S. Army Corps of Engineers        98-003 Unaccompanied
(FOUO) (2/2/98)                     Enlisted Personnel Housing        AA 98-76 Family Housing
                                    Requirements for Marine Corps     Management, U.S. Army,
                                    Base Camp Lejeune, North          Europe and Seventh Army
AA 98-84 Contract Termination       Carolina (10/3/97)
Process, U.S. Army Aviation                                           (1/26/98)
and Missile Command (1/26/98)
                                    98-006 DoD Family Housing
                                    Requirements Determination        AA 98-114 Telephone Costs,
AA 98-92 Real Estate                (10/8/97)                         25th Infantry Division (Light)
Acquisition (3/9/98)                                                  and U.S. Army Hawaii,
                                                                      Schofield Barracks, Hawaii
                                    98-014 Defense Base Realign-
                                                                      (3/1/98)
AA 98-96 Advisory Service           ment and Closure Budget Data
Contracts (2/12/98)                 for the Realignment of Under-
                                    graduate Pilot Training From      AA 98-136 Military Traffic
                                    Reese Air Force Base, Texas, to   Management Command Base
Naval Audit Service
                                    Columbus Air Force Base,          Realignment and Closure 1995
                                    Mississippi (10/24/97)            Construction Requirements, Fort
001-98 Auditor General
                                                                      Eustis, Virginia (3/20/98)
Advisory: Program Executive
Office Auditor Project (10/3/97)    98-018 Navy Use of Variable
                                    Housing Allowance Survey          Naval Audit Service
                                    Data (11/10/97)
014-98 Planning for the                                               002-98 Fiscal Year 1999
Acquisition of Flight Data          98-080 Unaccompanied              Military Construction Projects
Recorders for Naval Aircraft        Enlisted Personnel Housing        Stemming from Decisions on
(12/18/97)                          Requirements for Naval Station    the 1993 and 1995 Base Closure
                                    San Diego, California (2/23/98)   and Realignment Commissions
016-98 Acquisition of                                                 (11/7/97)
Computer Equipment and              Army Audit Agency
Displays on Air Force Contracts                                       012-98 Military Construction,
(1/8/98)                            AA 98-15 Base Realignment         Navy Projects Proposed for
                                    and Closure Construction          Fiscal Year 1999 (12/17/97)
                                    Requirements Wheeler Army
029-98 Acquisition, Manage-
                                    Air Field, Hawaii (11/12/97)
ment, and Use of Flight                                               026-98 Physical Security at
Simulators (3/27/98)                                                  Naval Air Station Patuxent
                                    AA 98-20 Arvin Cadet Physical
                                    Development Center Construc-      River, MD (2/27/98)
Air Force Audit Agency              tion Project, United States
                                    Military Academy (11/14/97)       028-98 Bachelor Quarters
97064010 Air Logistics Center                                         Centralized Reservation System
Contract Terminations               AA 98-23 Space Utilization, III   (3/19/98)
(1/23/98)                           Corps and Fort Hood (10/30/97)
                                                                      Air Force Audit Agency
97066007 Reimbursements at          AA 98-45 Army's Utility
Test Centers and Laboratories       Privatization Program             97052002 Commanders'
(12/29/97)                          (12/18/97)                        Facility Assessment Program


                                                  A-3
Appendix A                                                          Semiannual Report to the Congress


                                 AA 98-24 Eliminating                  98-019 Inventory Record
Environment                      Hazardous Material in Weapon          Accuracy and Management
                                 Systems, Program Executive            Controls at the Defense
                                 Officer for Tactical Wheeled          Logistics Agency Distribution
IG, DoD                          Vehicles (10/30/97)                   Depots (11/10/97)

98-001 Evaluation of the         AA 98-35 Environmental                98-022 Reporting of Contract
Department of Defense            Remediation, Alabama Army             Holdbacks on the DoD Financial
Pollution Prevention Program     Ammunition Plant (12/2/97)            Statements (11/17/97)
(10/3/97)
                                 AA 98-97 Forestry and                 98-027 Including All
98-017 Upgrade of the Interim    Agricultural Outleasing               Appropriation Accounts in the
Tankman System (11/7/97)         Programs (2/3/98)                     FY 1996 "Other Defense
                                                                       Organizations" Financial
98-021 Management of             AA 98-106 Environmental               Statements by the Defense
Underground Storage Tanks at     Remediation, Fort Ord,                Finance and Accounting
Defense Logistics Agency         California (3/23/98)                  Service, Indianapolis Center
Centers (11/13/97)                                                     (11/28/97)
                                 AA 98-134 Management of
98-051 Chemical Event at         Underground Storage Tanks             98-028 Personal Services and
Tooele Chemical Agent            (3/16/98)                             Benefits Expenses in the FY 1996
Disposal Facility (1/20/98)                                            Statement of Operations and
                                 Naval Audit Service                   Changes in Net Position of the
98-076 Funds Used for the                                              “Other Defense Organizations”
Arctic Military Environmental    018-98 Management of Under-           (12/2/97)
Cooperation Program (2/17/98)    ground Storage Tanks (1/2/98)
                                                                       98-029 Revenues and Expenses
98-090 Evaluation of DoD         Air Force Audit Agency                From Reimbursable Activity for
Waste Site Groundwater Pump-                                           Other Defense Organizations
                                 97052030 Forest Program               (12/5/97)
and-Treat Operations (3/12/98)
                                 (11/18/97)
Army Audit Agency                                                      98-030 Hotline Allegations on
                                                                       Army National Guard Appropri-
AA 98-3 Eliminating              Finance and                           ations (12/3/97)
Hazardous Material in Weapon     Accounting
Systems, Program Executive                                             98-031 The DoD Contract Fund
Officer for Ground Combat and                                          Reconciliation Process (12/5/97)
Support Systems (10/10/97)
                                 IG, DoD
                                                                       98-033 Defense Agency Travel
AA 98-7 Environmental            98-002 A Status Report on the         Payments at Defense Finance
Remediation, Pueblo Chemical     Major Accounting and Manage-          and Accounting Service,
Depot, Colorado (11/24/97)       ment Control Deficiencies in the      Indianapolis Center (12/8/97)
                                 Defense Business Operations
AA 98-16 Environmental           Fund for FY 1996 (10/3/97)            98-038 Control of Database
Remediation, Fort Devens,                                              Applications at the Defense
Massachusetts (10/24/97)         98-008 Financial Reporting of         Finance and Accounting
                                 Defense Business Operations           Service, Indianapolis Center
AA 98-19 Environmental           Fund FY 1996 Property, Plant,         (12/12/97)
Remediation, U.S. Army           and Equipment (10/9/97)
Materials Technology                                                   98-039 Cash Management in
Laboratory, Watertown,           98-016 Controls Over Govern-          the Defense Working Capital
Massachusetts (10/24/97)         ment Bills of Lading (11/3/97)        Funds (12/15/97)


                                               A-4
Semiannual Report to the Congress                                                         Appendix A


98-040 Air National Guard           98-059 Financial Accounting       AA 98-18 Selected Financial
Financial Reports on the National   for the Defense Investigative     Controls - Morale, Welfare and
Guard and Reserve Equipment         Service (2/3/98)                  Recreation Activities, U.S.
Appropriation (12/16/97)                                              Army Training Center and Fort
                                    98-060 Joint Logistics Systems    Jackson (10/27/97)
98-042 Financial Reporting by       Center Reporting of Systems
Selected Defense Agencies of        Development Costs (2/3/98)        AA 98-32 Army Working
Government Property in the                                            Capital Fund Statement of
Custody of Contractors              98-062 Compilation of the         Financial Position, Crane Army
(12/16/97)                          FY 1996 Financial Statements      Ammunition Activity (11/17/97)
                                    for Other Defense Organizations
                                    (2/4/98)
98-046 Military Traffic                                               AA 98-33 Review of the Army
Management Command                  98-071 Cash Impact of the         Management Control Process
Financial Reporting of Property,    Consumable Item Transfer,         (Fiscal Year 1997) (11/14/97)
Plant, and Equipment (1/14/98)      Phase II, FY 1997 (2/11/98)
                                                                      AA 98-42 Out-of-Service Debt
98-048 Travel and Transpor-         98-072 Defense Business           (12/17/97)
tation Expenditures Reported on     Operations Fund Inventory
the Consolidated FY 1996            Record Accuracy (2/12/98)         AA 98-46 Army Working
Financial Statements of the                                           Capital Fund Supply Manage-
"Other Defense Organizations"       98-073 Defense Finance and        ment FY 97 Statement of
Receiving Department 97             Accounting Service Work on the    Financial Position, U.S. Army
Appropriations (1/16/98)            Navy General Fund FY 1996         Air Defense Artillery Center and
                                    Financial Statements (2/12/98)    Fort Bliss (12/17/97)
98-050 Defense Business
Operations Fund Adjustments at      98-075 Distribution Depot         AA 98-49 Cash Controls, U.S.
the Defense Finance and             Revenues (2/13/98)                Army Garrison, Carlisle
Accounting Service, Denver                                            Barracks, Pennsylvania
Center (1/20/98)                    98-086 Internal Controls and      (12/18/97)
                                    Compliance With Laws and
                                    Regulations for Expense
98-052 Defense Logistics            Account Line Items on the         AA 98-57 Financial Reporting
Agency Past Due Federal             FY 1996 Defense Business          of Section 801 Family Housing
Accounts Receivable (1/22/98)       Operations Fund Consolidated      Leases (12/23/97)
                                    Financial Statements (3/4/98)
98-054 Compilation of FY 1996                                         AA 98-58 Closeout of
Air Force Consolidated              98-097 Defense Commissary         Conventional Ammunition
Financial Statements at the         Agency Financial Reporting of     Working Capital Fund - Phase I
Defense Finance and                 Property, Plant and Equipment     (12/23/97)
Accounting Service, Denver          (3/27/97)
Center (1/23/98)                                                      AA 98-60 Army Working
                                    Army Audit Agency                 Capital Fund FY 97 Financial
98-056 Controls Over                                                  Statements, Work in Process
                                    AA 98-12 Army Working
Presenting Expense Account                                            (1/21/98)
                                    Capital Fund FY 97 Financial
Line Items on the FY 1996           Statements, Anniston Army
Statement of Operations for the     Depot (10/20/97)                  AA 98-61 Selected Financial
Air Force Supply Management                                           Controls - Morale, Welfare and
Business Area (1/27/98)             AA 98-17 Army's Principal         Recreation Activities, Fort
                                    Financial Statements for Fiscal   Belvoir, Virginia (12/30/97)
98-058 Payroll Expenses             Years 1996 and 1995, Financial
Reported in FY 1996 for the         Reporting of Progress Payments,   AA 98-64 Audit of Secretary of
Office of the Secretary of          Defense Finance and               Defense Mess Fund, Financial
Defense (2/2/98)                    Accounting Service (11/14/97)     Statements (1/8/98)


                                                  A-5
Appendix A                                                            Semiannual Report to the Congress


AA 98-66 Audit of General          AA 98-108 Corps of Engineers          005-98 Auditor General
Officers' Mess Fund, Financial     Financial Management System           Opinion: Department of the
Statements (1/8/98)                (2/13/98)                             Navy Annual Statement of
                                                                         Assurance for Fiscal Year 1997
AA 98-70 Selected Financial        AA 98-110 Army Working                (11/14/97)
Controls - Morale, Welfare and     Capital Fund FY 97 Financial
Recreation Activities, U.S.        Statements, Property, Plant and       006-98 Department of the Navy
Army Community and Family          Equipment (3/3/98)                    Fiscal Year 1996 Annual
Support Center (1/16/98)                                                 Financial Report: Accounts
                                   AA 98-111 Army Working                Payable and Accrued Payroll
AA 98-79 Army Working              Capital Fund Principal Financial      Benefits (11/14/97)
Capital Fund FY 97 Financial       Statements for Fiscal Year 1997,
Statements, U.S. Army              Auditor’s Report (2/13/98)
                                                                         007-98 Financial Practices at
Communications-Electronics
Command (1/23/98)                                                        Navy Special Warfare Group
                                   AA 98-112 FY 97 Financial             Two (11/27/97)
                                   Statements Opinion Report, U.S.
AA 98-90 Selected Financial        Army Corps of Engineers, Civil
Controls Over Billeting            Works (2/19/98)                       015-98 Department of the Navy
Activities, U.S. Army Training                                           Fiscal Year 1996 Annual
Center and Fort Jackson                                                  Financial Report: Department
                                   AA 98-124 Army Working
(1/30/98)                                                                of Defense Issues (12/19/97)
                                   Capital Fund Principal Financial
                                   Statements for Fiscal Year 1997,
AA 98-93 City of Cumberland        Report on Internal Controls and       019-98 Ground Fuel Tax
Section 202 Project, Great Lakes   Compliance With Laws and              Refunds at Selected Navy and
and Ohio River Division, U.S.      Regulations (3/19/98)                 Marine Corps Commands
Army Corps of Engineers                                                  (1/23/98)
(2/6/98)                           AA 98-125 Army Working
                                   Capital Fund Statement of             022-98 Quality Control
AA 98-98 Army's Principal          Financial Position, U.S. Army         Review: “Fiscal Year 1995
Financial Statements for Fiscal    Tank-automotive and Arma-             Consolidating Financial State-
Years 1997 and 1996, Financial     ments Command (3/20/98                ments of the Department of the
Reporting of Wholesale                                                   Navy Defense Business
Munitions (2/5/98)                                                       Operating Fund” (2/17/98)
                                   AA 98-144 Army’s Principal
                                   Financial Statements for Fiscal
AA 98-101 Financial Controls,      Years 1997 and 1996, Financial        023-98 Quality Control
Pine Bluff Arsenal, Arkansas       Reporting of Accounts
(2/17/98)                                                                Review: “Fiscal Year 1996
                                   Receivable (3/30/98)                  Consolidating Financial State-
                                                                         ments of the Department of the
AA 98-103 Closeout of the          AA 98-157 Army’s Principal            Navy Defense Business
Conventional Ammunition            Financial Statements for Fiscal       Operating Fund” (2/17/98)
Working Capital Fund - Phase II    Years 1997 and 1996, Financial
(2/17/98)                          Reporting of Wholesale Equip-
                                   ment, Followup Issues (3/31/98)       024-98 Fiscal Years 1997 and
AA 98-104 Army’s Principal                                               1996 Consolidated Financial
Financial Statements for Fiscal                                          Statements of the Department of
                                   Naval Audit Service                   the Navy Working Capital Fund
Years 1997 and 1996, Auditor’s
Report (2/13/98)                                                         (2/27/98)
                                   004-98 Department of the Navy
                                   Fiscal Year 1996 Annual
AA 98-105 Cost Reimburse-          Financial Report: Fund Balance        025-98 Department of the Navy
ment for Contingency Opera-        with Treasury and Cash and            Principal Statements for Fiscal
tions, U.S. Army Reserve           Other Monetary Assets                 Years 1997 and 1996: Report
(3/16/98)                          (10/31/97)                            on Auditor’s Opinion (2/27/98)


                                                 A-6
Semiannual Report to the Congress                                                         Appendix A


Air Force Audit Agency
                                    Forces Management                Health Care
96068002 Expenses and
Accounts Payable, Supply
Management Business Area,           IG, DoD                          IG, DoD
Fiscal Year 1996 (11/28/97)
                                                                     98-035 Medical Facility
                                    98-036 Intergovernmental         Requirements - Naval Hospital
97051026 Air Force Injury           Personnel Act Employees in the   Bremerton, Washington
Compensation Program                Office of the Assistant to the   (12/10/97)
(10/3/97)                           Secretary of Defense (Nuclear
                                    and Chemical and Biological      Army Audit Agency
                                    Defense Programs) (FOUO)
97053009 Opinion on Fiscal
                                    (12/11/97)                       AA 98-1 Management of
Year 1997 Air Force Consoli-
dated Financial Statements                                           Deployable Medical Systems
(2/27/98)                           Army Audit Agency                (10/9/97)

                                    AA 98-26 Bilateral Training
97054026 Work Information
Management System Financial
                                    Exercises, U.S. Army Japan and   Information
                                    9th Theater Army Area
Management and Acquisition          Command (11/18/97)               Technology
Module Controls (1/26/98)
                                                                     Resources
                                    AA 98-130 Implementation of
97054031 Followup Audit,            Workload-Based Manpower
Aerospace Maintenance and           Requirements Program, U.S.       IG, DoD
Regeneration Center                 Army Forces Command
Accounting Systems (12/29/97)                                        98-007 General and Application
                                    (3/16/98)                        Controls Over the Mechanization
                                                                     of Contract Administration
97054035 Official Representa-       AA 98-148 Implementation of      Services System (10/9/97)
tion Contingency Funds, Fiscal      Workload-Based Manpower
Year 1996 (2/5/98)                  Requirements Program, U.S.       98-009 Demand Assigned
                                    Army Training and Doctrine       Multiple Access Terminals
97058003 United States              Command (3/30/98)                (10/14/97)
Property and Fiscal Office
Accountability for Air National     Naval Audit Service              98-013 Second User
Guard Resources (2/4/98)                                             Acceptance Test of the Electronic
                                    021-98 Naval Selected Reserve    Document Management System
97058005 Military Family            Enlisted Retention Programs      at the Defense Finance and
Housing Tenant Liability            (1/30/98)                        Accounting Service Operating
(3/2/98)                                                             Location, Omaha, Nebraska
                                                                     (10/24/97)
                                    Air Force Audit Agency
97068041 Interim Report of                                           98-014 The Working Capital
Audit, Incremental Revenue          97051029 Air Force Academy
                                    Flight Screening Operations      Funds Interim Migratory
Recognition, Depot Mainte-                                           Accounting Strategy (10/24/97)
nance Activity Group, Air Force     (1/14/98)
Working Capital Fund, Fiscal                                         98-023 Implementation of the
Year 1997 (Project 97068001)        97058007 Operational             DoD Joint Technical
(2/3/98)                            Readiness of RED HORSE           Architecture (11/18/97)
                                    Squadrons (10/14/97)
97068043 Opinion on Fiscal                                           98-024 Security Controls Over
Year 1997 Air Force Working         97058030 Prime Base Engineer     Systems Serving the DoD
Capital Fund Financial              Emergency Force Operations       Personnel Security Program
Statements (2/27/98)                (12/19/97)                       (11/19/97)


                                                 A-7
Appendix A                                                          Semiannual Report to the Congress


98-041 Acquisition Manage-        AA 98-10 Army Web Server             97068016 Application Controls
ment of the Defense Civilian      Security (1/20/98)                   Over Unit Price Data Within the
Personnel Data System                                                  Requirements Data Bank
(12/16/97)                        AA 98-123 Information                System, Air Force Working
                                  Assurance for the Army’s             Logistics
98-057 Defense Finance and        Segment of the Defense Civilian
Accounting Service Acquisition    Personnel Data System (FOUO)
Program for the Electronic        (3/3/98)
Document Management                                                    Intelligence
Program (1/27/98)                 Air Force Audit Agency
                                  97054008 Command Post                See Appendix in classified
98-061 Tactical Contingency                                            annex to this report.
Communications Equipment -        Operations (12/24/97)
Central Area (2/4/98)
                                  97054013 General and
98-065 DoD Information            Application Controls Within the      Logistics
Technology Solicitations and      On-Line Vehicle Interactive
Contract Compliance for Year      Management System (1/5/98)
2000 Requirements (2/6/98)                                             IG, DoD
                                  97058036 Computer Upgrades
98-068 Year 2000 Compliance       and Random Access Memory
                                                                       98-020 Supportability Issues for
in an Air Force Special Access    Chips (1/9/98)
                                                                       the National Guard and
Program (CLASSIFIED)                                                   Reserves (11/10/97)
(2/10/98)                         97058039 Voice Mail Systems
                                  (12/30/97)
                                                                       98-025 Management and
98-074 Sharing Year 2000                                               Administration of International
Testing Information on DoD        97058046 Telephone Service
                                  for Personnel Residing on            Agreements in the Department
Information Technology                                                 of Defense (11/19/97)
Systems (2/12/98)                 Installations (2/25/98)

98-077 Year 2000 Computing        97066001 Information                 98-034 Billing of Household
Problem Reports: August 1997      Protection Over the Global           Goods Accessorial Charges
Report (2/18/97)                  Positioning System Computers         (12/10/97)
                                  (CLASSIFIED) (1/28/98)
98-082 Information Assurance                                           98-037 Dual Management of
of the Defense Civilian Person-   97066002 Multi-Use Software          Commercially Available Items -
nel Data System (2/23/98)         Licenses (12/15/97)                  Battery, Food Service, and
                                                                       Photographic Products
98-095 Defense Security           97066018 Inventory Status for        (12/12/97)
Assistance Management System      the Year 2000 Program
(3/24/98)                         (1/21/98)
                                                                       98-066 Executive Agent
                                                                       Support to Joint Operations
98-098 Selected General           97066024 Followup Audit, Risk
                                                                       (2/9/98)
Controls Over the Retiree and     Management of Depot Mainte-
Casualty Pay Subsystem at the     nance Computers (11/7/97)
                                                                       98-085 Joint Contracting for
Defense Finance and                                                    Depot Maintenance of
Accounting Service, Cleveland     97066025 Software Cost
                                  Estimating Methodologies             Secondary Items (3/4/98)
Center (3/30/98)
                                  Within the Materiel Systems
Army Audit Agency                 Group (1/5/98)                       98-094 Management and
                                                                       Administration of International
AA 98-9 Web Server Security,      97066029 Global Combat               Agreements in the U.S. Central
U.S. Army Aviation and Missile    Support System - Air Force           Command (CLASSIFIED)
Command (FOUO) (10/31/97)         (11/19/97)                           (3/23/98)


                                                A-8
Semiannual Report to the Congress                                                            Appendix A


Army Audit Agency                   011-98 Alteration of Harbor        Army Audit Agency
                                    Security and Explosive
AA 98-2 Unit-Level Logistics        Ordnance Disposal Boats            AA 98-27 Child and Adult Care
System-Ground, XVIII Airborne       (11/26/97)                         Food Program, Fort Lewis,
Corps and Fort Bragg (10/9/97)                                         Washington (10/27/97)
                                    017-98 Marine Corps Procure-
AA 98-29 Ammunition                                                    AA 98-40 Army Family
                                    ment of Replenishment Material
Management (CLASSIFIED)                                                Advocacy Program (12/9/97)
                                    Requirements (1/6/98)
(11/3/97)
                                                                       AA 98-51 Baseline Validation-
                                    027-98 Servicewide Transpor-       Demonstration Project For
AA 98-31 Total Asset                tation Under the Operation and     Uniform Funding of Morale,
Visibility-Operational Projects     Maintenance Appropriation          Welfare and Recreation
(11/17/97)                          (3/6/98)                           Activities (12/23/97)

AA 98-41 Transportation Motor       030-98 Management of Non-          AA 98-133 Reengineering
Pool Operations, Eighth U.S.        Tactical (Administrative) Trans-   Overhead Support for Morale,
Army (12/12/97)                     portation Vehicles (3/24/98)       Welfare and Recreation
                                                                       Activities, U.S. Army Field
AA 98-54 Followup Audit -           Air Force Audit Agency             Artillery Center and Fort Sill
Ammunition Supply Point, I                                             (3/18/98)
Corps and Fort Lewis (12/23/97)     96061003 Consumable Readi-
                                    ness Spares Requirements           AA 98-141 Assets and
                                    (10/1/97)                          Liabilities of Army Morale,
AA 98-77 Initial Spares and
Repair Parts, Program Executive                                        Welfare and Recreation Test
Officer for Tactical Missiles       96061021 Government Bills of       Sites (3/30/98)
(1/30/98)                           Lading (11/28/97)
                                                                       Naval Audit Service
AA 98-99 Sustainment                97061004 Depot Contract
                                    Maintenance Usage and              003-98 Navy Exchange Service
Requirements for the Army,                                             Command Local Audit Function
Prepositioned Stock Program         Inventory Data (1/7/98)
                                                                       (11/7/97)
(2/23/98)
                                    97061024 Munitions Inventory       013-98 Morale, Welfare, and
AA 98-135 Reengineering             and Access Controls (10/31/97)     Recreation Resale Activities at
Organizational Clothing and                                            Naval Air Station, Patuxent
Individual Equipment, and           97061027 Munitions Transpor-       River, MD (12/16/97)
Central Issue Facility              tation and Disposal Controls
Operations (3/30/98)                (1/7/98)                           020-98 Consumer Electronics
                                                                       (B5) and Home Office (B7)
AA 98-138 Army Prepositioned        97061029 Followup Audit,           Retail Departments (1/23/98)
Stock Program, Combat Equip-        Express Transportation for
ment Group-Europe (3/31/98)         Small Packages (1/29/98)
                                                                       Audit Oversight
Naval Audit Service                                                    Reviews
                                    Quality of Life
008-98 Local Audit Function at
Selected Chief of Naval Educa-
                                                                       IG, DoD
tion and Training Command           IG, DoD
Activities (11/20/97)                                                  PO 98-6-005 Coopers and
                                    98-091 Information and Assis-      Lybrand, L.L.P., Rensselaer
010-98 Sustainability of Air        tance to Members of Families of    Polytechnic Institute, Fiscal
Launched Missile Systems            Casualties of Military Aviation    Year Ended June 30, 1996
(12/5/97)                           Accidents (3/16/98)                (2/10/98)


                                                  A-9
Appendix A                                                        Semiannual Report to the Congress


PO 98-6-006 Coopers and          PO 98-6-007 KPMG Peat               PO 98-6-008 KPMG Peat
Lybrand, L.L.P., and the         Marwick L.L.P., and the             Marwick L.L.P., and the
Defense Contract Audit Agency,   Defense Contract Audit Agency,      Defense Contract Audit Agency,
the RAND Corporation, Fiscal     the Aerospace Corporation,          the Smithsonian Institution,
Year Ended September 24, 1995    Fiscal Year Ended                   Fiscal Year Ended
(2/17/98)                        September 30, 1995 (3/6/98)         September 30, 1996 (3/20/98)




       Our report on the status of OIG, DoD reports over 12 months old
       in which management decisions have been made but final action
       has not been taken has been provided to the Department and is
       available upon request.




                                              A-10
Semiannual Report to the Congress                                                             Appendix B




                              APPENDIX B1
         INSPECTOR GENERAL, DOD, AUDIT REPORTS ISSUED CONTAINING
               QUANTIFIABLE POTENTIAL MONETARY BENEFITS

                                                                        Potential Monetary Benefits
                                                                             ($ in thousands)

                                                                                         Funds Put to
                  Audit Reports Issued                             Disallowed Costs2      Better Use
98-017 Upgrade of the Interim TANKMAN System                                N/A                 $100
(11/7/97)
98-035 Medical Facility Requirements - Naval Hospital,                      N/A                 2,000
Bremerton, Washington (12/10/97)
98-043 Supportability Planning for Fleet Introduction of                    N/A                18,000
the Strategic Sealift Ships (12/30/97)
98-059 Financial Accounting for the Defense Investigative                   N/A                30,600
Service (2/3/98)
98-060 Joint Logistics Systems Center Reporting of                          N/A             1,998,000
Systems Development Costs (2/3/98)
98-064 Commercial and Noncommercial Sole-Source                             N/A                83,800
Items Procured on Contract N000383-98-G-M111 (2/6/98)
98-088 Sole-Source Prices for Commercial Catalog and                        N/A                13,300
Noncommercial Spare Parts (3/11/98)
Totals                                                                        0            $2,145,800
   1. Fulfills the requirement of 5 U.S.C., Appendix 3, Section 5(a)(6).
   2. There were no OIG audit reports during the period involving disallowed costs.




                                                      B-1
Appendix B                                    Semiannual Report to the Congress




             This page left blank intentionally




                            B-2
Semiannual Report to the Congress                                                                      Appendix C


                                            APPENDIX C*
                                        FOLLOWUP ACTIVITIES


        DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
           RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1
                                ($ in thousands)

                                                   Number Funds  Put to
                         Status                             Better Use
A.    For which no management decision had been made by the                               41          $395,789
      beginning of the reporting period.
B.    Which were issued during the reporting period.                                     113          2,145,800
      Subtotals (A+B)                                                                    154          2,541,589
C.    For which a management decision was made during the reporting
      period.                                                                            119            415,889
         (i)    dollar value of recommendations that were agreed to by
                management                                                                                 2,098
                  - based on proposed management action                                                    2,098
                  - based on proposed legislative action                                                       0
         (ii)   dollar value of recommendations that were not agreed to by
                management                                                                              413,791
D.    For which no management decision has been made by the end of the
      reporting period.                                                                   35          2,125,700
      Reports for which no management decision was made within 6
      months of issue (as of March 31, 1998).
                                                                                            0                  0
     1. There were no OIG audit reports during the period involving questioned costs.




                    STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                                      ($ in thousands)
                                                  Number of Questioned Funds Put to
                     Status of Action              Reports    Costs     Better Use
 IG, DoD
 Action in Progress - Beginning of Period                              251                              $308,161
 Action Initiated - During Period                                      119                                 2,098
 Action Completed - During Period                                      108                                83,056
 Action in Progress - End of Period                                    263                               221,5791
 Military Departments
 Action in Progress - Beginning of Period                              400                             7,236,827
 Action Initiated - During Period                                      142                             1,767,432
 Action Completed - During Period                                      186                             1,473,379
 Action in Progress - End of Period                                    356                             7,881,883
     1. On certain reports (primarily from prior periods) with audit estimated monetary benefits of $382 million,
        it has been agreed that the resulting monetary benefits can only be estimated after completion of manage-
        ment action, which is ongoing.


                                                        C-1
Appendix C                                    Semiannual Report to the Congress




             This page left blank intentionally




                            C-2
Semiannual Report to the Congress                                                                      Appendix D




                                            APPENDIX D
                              CONTRACT AUDIT REPORTS ISSUED1
                                          ($000 in millions)
                                                               Audit                             Funds Put to
      Type of Audit            Reports Issued     Examined   Exceptions                           Better Use
 Incurred Costs                         12,965               $47,083.5             $622.8                 $28.82
 Forward Pricing Proposals                4,915               33,045.6                  --              2,112.6
 Cost Accounting                          1,571                  142.8                71.6                   --
 Standards
 Defective Pricing3                         420                       0              163.6                        --
 Other4                                        2                      0                  --                       --
 Totals                                 19,873               $80,271.9             $858.0              $2,141.4
    1. Because of limited time between availability of management information system data and legislative
       reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of reported
       data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
    2. Incurred cost funds put to better use are from the cost avoidance recommended in operations audits.
    3. Defective pricing dollars examined are not reported because they are considered a duplication of forward
       pricing dollars reported as examined.
    4. Relates to suspected irregular conduct cases.




                                                       D-1
Appendix D                                    Semiannual Report to the Congress




             This page left blank intentionally




                            D-2
This report, as well as audit report text and testimony text, are available on
the Internet at:
             www.dodig.osd.mil

Additional information on or copies of this report may be obtained by writing
or contacting:

            Paul Allison                  703-604-9785; DSN 224-9785

            Inspector General, Department of Defense
            Office of the Assistant Inspector General for Administration
                 and Information Management
            Administration and Logistics Services Directorate
            Policy Review and Reports Office, Room 402
            400 Army Navy Drive
            Arlington, Virginia 22202-2884
